No. 21-___
IN THE

Supreme Court of the United States
————
JOSEPH CHAPO, SHERRY CHAPO,
DEPUTY BIG SHOT LLC,
v.

Petitioners,

JEFFERSON COUNTY PLAN COMMISSION,
Respondent.
————
On Petition for a Writ of Certiorari from the
Supreme Court of Indiana
————
PETITION FOR A WRIT OF CERTIORARI
————
CHARLES E. MCFARLAND
Counsel of Record
338 Jackson Road
New Castle, KY 40050
(502) 845-2754
mcfarlandc@bellsouth.net
Counsel for Petitioners
August 25, 2021

WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D.C. 20002

QUESTION PRESENTED FOR REVIEW
The question presented for review, with its
subsidiary questions is:
Whether the de facto officer doctrine can be applied
to individuals claiming to hold a vacant office of a
political subdivision made vacant by the General
Assembly statute declaring the office vacant, if an
appointed officer does not take the mandatory oath to
uphold the United States Constitution, where an
injunction is sought by the vacant offices to prohibit
the use and operation of a shooting range in violation
of the 2nd Amendment right to bear arms?
Subsidiary question 1 – Whether the Supreme
Court has jurisdiction to review the decisions of
Indiana State courts that apply the de facto officer
doctrine, where the individuals claiming to hold
vacant offices violate a protected constitutional right?;
Subsidiary question 2 – Whether the failure to
take an oath to uphold the Constitution of the United
States is a constitutional structural error, where the
individuals claiming to hold vacant offices initiate a
court action to prohibit the 2nd Amendment right of
persons to use and operate a shooting range?; and
Subsidiary question 3 – Whether the de facto
officer doctrine can be applied to individuals claiming
to hold vacant offices, where the offices are vacant per
Indiana law?

(i)

ii
PARTIES TO THE
PROCEEDING IN STATE COURT
Plaintiff/Appellee – Jefferson County Plan Commission;
Defendant/Appellant – Joseph Chapo;
Defendant/Appellant – Sherry Chapo; and
Defendant Appellant – Deputy Big Shot LLC.
CORPORATE DISCLOSURE STATEMENT
The Petitioner Deputy Big Shot LLC1 is organized
under the State of Indiana as a Domestic Limited
Liability Company and has no parent corporation and
no publicly held company is a member of the LLC.

1

The Registered name is Deputy Big Shot LLC in the Indiana
Secretary of State records and it Articles of Incorporations. When
the Amended Complaint was filed, however, the caption incorrectly listed it as Deputy Big Shot, LLC. The Caption in every
court since then has used Deputy Big Shot, LLC, instead of its
correct name, Deputy Bigshot LLC.

iii
PROCEEDINGS IN INDIANA CIRCUIT COURT
AND COURT OF APPEALS
The Jefferson County Circuit Court Order on
Defendant’s Motion to Dismiss and Plaintiff’s Citation
for Contempt, Jefferson County Plan Commission v.
Joseph Chapo, Sherry Chapo, and Deputy Big Shot,
LLC, No. 39C01-1605-CT-380 (October 17, 2017),
Appx. A, at beginning at Appx. 1a.
The Opinion of the Court of Appeals in the interlocutory appeal upholding the Circuit Court preliminary
injunction is unpublished, Joseph Chapo and Sherry
Chapo v. Jefferson County Plan Commission, 39A051612-CT-2840, 102 N.E.3d 354 (Ind. App. May 29, 2018).2
The Order of the Jefferson County Circuit Court
denying the Rule 60(B)(6) is unpublished, Jefferson
County Plan Commission v. Joseph Chapo and Sherry
Chapo, Jefferson County Circuit Court, No. 39C011605-CT-380 (November 25, 2019), Appendix (hereinafter referred to as Appx.) B, beginning at Appx. 11a.
The Order of the Jefferson County Circuit Court
denying Motion to Correct Error is unpublished,
Jefferson County Plan Commission v. Joseph Chapo
and Sherry Chapo and Deputy Big Shot, LLC, Jefferson
County Circuit Court, No. 39C01-1605-CT-380 (April
17, 2020), Appx. C, at beginning at Appx. 14a.
2

The question presented to the Supreme Court deals only with
the question of applying the de facto officer doctrine to vacant
offices, where actions of the individuals claiming to hold the
vacant offices are repugnant to the Constitution and a trespass
upon the 2nd Amendment right to bear arms, not merely a
misapplication of the Indiana law making an office vacant.
Accordingly, because the appellate decision was not directly
involved with the question of de facto officer doctrine, it is not
included in the Appendix.

iv
Opinion of the Court of Appeal upholding Circuit
Court decision to deny the Rule 60(B)(6) Motion for
Relief from Void Judgment, Joseph Chapo, Sherry Chapo
and Deputy Big Shot, LLC v. Jefferson County Plan
Commission, 20A-CT-1197, 164 N.E.3d 131 (Ind. App.
January 22, 2021), Appx. D, beginning at Appx. 28a.
Indiana Supreme Court denial of Petition to Transfer
with no discussion is unpublished, Joseph Chapo;
Sherry Chapo; Deputy Big Shot, LLC v. Jefferson
County Plan Commission, 20A-CT-1197 (May 27,
2021), Appx. E, beginning at Appx. 36a.

TABLE OF CONTENTS
Page
QUESTION PRESENTED FOR REVIEW .........

i

PARTIES TO THE PROCEEDING IN STATE
COURT .............................................................

ii

CORPORATE DISCLOSURE STATEMENT .....

ii

PROCEEDINGS IN INDIANA CIRCUIT
COURT AND COURT OF APPEALS .............

iii

TABLE OF AUTHORITIES ................................

viii

STATEMENT OF SUPREME COURT
JURISDICTION ...............................................

1

CONSTITUTIONAL AND STATUTORY
PROVISIONS ...................................................

1

STATEMENT OF THE CASE ............................

2

A. Nature of the Case and Lack of Jurisdiction of Jefferson Circuit Court .................

2

B. Course of Proceedings in Indiana Courts

5

STATEMENT OF RELEVANT FACTS .............

6

REASONS FOR GRANTING A WRIT OF
CERTIORARI ...................................................

11

I. Introduction ..............................................

11

II. Question for Review ..................................

14

A. Introduction .........................................

14

B. Supreme Court Has Jurisdiction to
Review the Decisions of State Courts .

15

(v)

vi
TABLE OF CONTENTS—Continued
Page
C. The Failure to Take an Oath to
Uphold the Constitution of the United
States is a Structural Error ................

20

D. The De Facto Officer Doctrine Cannot
Be Applied to Offices Made Vacant by
Indiana Law .........................................

24

CONCLUSION ....................................................

31

APPENDIX
APPENDIX A: ORDER ON DEFENDANT’S
MOTION TO DISMISS, AND PLAINTIFF’S
CITATION FOR CONTEMPT, State of
Indiana, Jefferson County Circuit Court
(October 17, 2017) ..........................................

1a

APPENDIX B: ORDER, State of Indiana,
Jefferson County Circuit Court (November
25, 2019) .........................................................

11a

APPENDIX C: ORDER, State of Indiana,
Jefferson County Circuit Court (April 17,
2020) ...............................................................

14a

APPENDIX D: OPINION, Indiana Court of
Appeal (January 22, 2021) .............................

28a

APPENDIX E: ORDER, Indiana Supreme
Court (May 27, 2021) .....................................

36a

vii
TABLE OF CONTENTS—Continued
Page
APPENDIX F: RELEVANT CONSTITUTIONAL
AND STATUTORY PROVISIONS ................ 38a
Amendment II to the United States
Constitution ................................................

38a

Amendment XIV Clause 1 to the United
States Constitution .....................................

38a

IC § 5-4-1-1..................................................

39a

IC § 5-4-1-1.2...............................................

40a

Indiana Rules of Trial Procedure, Rule
60(B) ............................................................

41a

Article I, Section 26, to the Indiana
Constitution ................................................

44a

Article I, Section 32, to the Indiana
Constitution ................................................

44a

Article 6, Section 9 to the Indiana
Constitution ................................................

44a

viii
TABLE OF AUTHORITIES
CASES

Page(s)

Arizona v. Fulminante,
499 U.S. 279 (1991) ...................................

22

Ayers v. Porter County Plan Commission,
544 N.E.2d 213 (Ind.App. 1989) ...............

19

Carty v. State,
421 N.E.2d 1151 (Ind.App.1981) ........ 18, 27, 28
District of Columbia v. Heller,
554 U.S. 570 (2008) ...................................

22

Ezell v. City of Chicago,
651 F.3d 684 (7th Cir. 2011) ....................passim
Ezell v. City of Chicago,
846 F. 3d 888 (71h Cir. 2017) ...................

18

Fields v. State,
91 N.E.3d 597 (Ind. Ct. App.
2017) .............................................. 21, 26, 27, 28
Freytag v. Commissioner,
501 U.S. 868 (1991) ...................................

22

Glidden Co. v. Zdanok,
370 U.S. 530 (1962) ................................... 18, 21
Joseph Chapo and Sherry Chapo v.
Jefferson County Plan Commission,
39A05-1612-CT-2840,102 N.E.3d 354
(Ind. App. May 29, 2018) .......................... 4, 19
Joseph Chapo, Sherry Chapo and Deputy
Big Shot, LLC v. Jefferson County Plan
Commission,
20A-CT-1197, 164 N.E.3d 131
(Ind. App. January 22, 2021) ...................passim

ix
TABLE OF AUTHORITIES—Continued
Page(s)
Joseph Chapo; Sherry Chapo; Deputy Big
Shot, LLC v. Jefferson County Plan
Commission, 20A-CT-1197 (May 27,
2021) .......................................................... 1, 2, 6
McDonald v. City of Chicago, Illinois,
561 U.S. 742, 130 S.Ct. 3020 (2010) .........

22

Morten v. City of Aurora,
96 Ind. App. 203, 182 N.E. 259 (1932) .....

29

Murray v. Conseco, Inc.,
795 N.E.2d 454 (Ind. 2003) .......................

25

Needham v. Suess,
577 N.E.2d 965 (Ind.App. 4 Dist. 1991) ...

25

Norton v. Shelby County,
118 U.S. 425 (1886) ....................... 16, 17, 18, 21
Ryder v. United States,
515 U.S. 177, 115 S.Ct. 2031 (1995) ........passim
Sauer v. Board of Zoning Appeals,
629 N.E.2d 893 (Ind.App. 1994) ...............

19

Scudder v. State,
124 N.E.3d 638 (Ind.App. 2019) ...............

25

State ex rel. Schroeder v. Morris,
199 Ind. 78, 155 N.E. 198 (Ind. 1927) ......

25

United States v. Royer,
268 U.S. 394 (1925) ................................... 29, 30
Weaver v. Massachusetts,
137 S.Ct. 1899 (2017) ................................

22

x
TABLE OF AUTHORITIES—Continued
CONSTITUTION

Page(s)

U.S. Const. art. II, §2, cl. 2 ...........................

21

U.S. Const. amend. II ..................................passim
U.S. Const. amend. XIV ......................... 22, 23, 32
U.S. Const. amend. XIV, cl. 1....................... 2, 22
Ind. Const. art. I, § 26 .................................. 2, 23
Ind. Const. art. I, § 32 .................................. 2, 23
Ind. Const. art. 6, § 9 ................................ 2, 27, 30
Ind. Const. art. 15, § 2 ..................................

26

STATUTES
28 U.S.C. §1257(a) ........................................ 1, 12
IC §5-4-1-1 ...................................................passim
IC §5-4-1-1(a) ................................................

26

IC §5-4-1-1.2 ............................................... 2, 5, 28
IC §5-4-1-1.2(c) ............................................passim
IC §5-4-1-1.2(d) ............................................passim
Indiana Shooting Range Protection Act (1996),
IC §§14-22-31.5-1--14-22-31.5-7 ............. 7, 9, 32
Ind. P.L.26-2000, SEC.32 ................................

28

RULES
Fed. R. Civ. P. 12(b)...................................... 9, 10
Fed. R. Civ. P. 12(b)(6) .................................

10

Ind. Code of Jud. Cond. 2.2 ..........................

23

xi
TABLE OF AUTHORITIES—Continued
Page(s)
Ind. R. App. P. 5 ...........................................

5

Ind. R. Trial P. 60(B) ...................................passim
Ind. R. Trial P. 60(B)(2)................................

11

Ind. R. Trial P. 60(B)(6)........................ 5, 6, 10, 11
Ind. R. Trial P. 60(C) ....................................

5

Sup. Ct. R. 10 ................................................

12

Sup. Ct. R. 10(c) ............................................ 12, 16

PETITION FOR WRIT OF CERTIORARI
The Petitioners Joseph Chapo, Sherry Chapo and
Deputy Big Shot LLC respectfully submit this Petition
for a Writ of Certiorari to review the January 22, 2021
judgment of the Indiana Court of Appeals and the
subsequent May 27, 2021 denial of their Petition for
Transfer to the Supreme Court of Indiana.
STATEMENT OF SUPREME COURT
JURISDICTION
The Supreme Court has jurisdiction pursuant to
28 U.S.C. §1257(a), which states in pertinent part,
Final judgments or decrees rendered by the highest
court of a State in which a decision could be had, may
be reviewed by the Supreme Court by writ of certiorari
. . . or where the validity of a statute of any State is
drawn in question on the ground of its being repugnant to the Constitution, treaties, or laws of the
United States, or where any title, right, privilege, or
immunity is specially set up or claimed under the
Constitution or the treaties or statutes of, or any
commission held or authority exercised under, the
United States.
The Petitioners Joseph Chapo, Sherry Chapo and
Deputy Big Shot LLC are respectfully petitioning for
a Writ of Certiorari to review the judgment of the
Indiana Court of Appeals opinion upholding Circuit
Court decision denying the Rule 60(B) Motion, Joseph
Chapo, Sherry Chapo and Deputy Big Shot, LLC v.
Jefferson County Plan Commission, 20A-CT-1197, 164
N.E.3d 131 (Ind. App. January 22, 2021), Appx. D,
beginning at Appx. 28a, and the subsequent denial of
their Petition for Transfer to the Supreme Court of
Indiana, Joseph Chapo; Sherry Chapo; Deputy Big Shot,

2
LLC v. Jefferson County Plan Commission, 20A-CT1197 (May 27, 2021), Appx. E, beginning at Appx. 36a.
CONSTITUTIONAL AND
STATUTORY PROVISIONS
The relevant Constitutional and statutory material
is set forth in Appx. F, beginning at Appx. 38a. They
are as follows:
1. Amendment II to the United States Constitution, Appx. 38a;
2. Amendment XIV Clause 1 to the United States
Constitution, Appx. 38a;
3. IC §5-4-1-1, Appx. 39a;
4. IC §5-4-1-1.2; Appx. 40a
5. Indiana Rules of Trial Procedure, Rule 60(B),
Appx. 41a;
6. Article I, Section 26, to the Indiana Constitution, Appx. 44a;
7. Article I, Section 32, to the Indiana Constitution, Appx. 44a; and
8. Article 6, Section 9 to the Indiana Constitution,
Appx. 44a.
STATEMENT OF THE CASE
A. Nature of the Case and Lack of Jurisdiction of Jefferson Circuit Court.
This case originated as a civil case brought by the
Jefferson County Plan Commission (hereinafter referred
to as JCPC) to seek an injunction against Defendants
Joseph Chapo and Sherry Chapo to prohibit them from
using and operating a shooting range on their prop-

3
erty. Deputy Big Shot LLC was subsequently added as
a defendant in an Amended Complaint. The Jefferson
County Court issued an Order on Defendants’ Motion
to Dismiss and Plaintiff’s Citation for Contempt on
October 17, 20017.
Despite the fact that the Jefferson County Zoning
Ordinance (JCZO) did not have any provisions regarding shooting ranges, the Circuit Court found:
9. There is no evidence that the JCZO is an
ordinance that was enacted with the explicit
intent to target or restrict the Second Amendment rights of any individual or entity.
10. There is no evidence that the JCZO is an
ordinance that has been applied to act as an
explicit or de facto ban on shooting ranges in
Jefferson County.
See Appx. 5a.
The main issue raised by the Chapos to the Circuit
Court was there was no provision regarding shooting
ranges in the JCZO, yet the Jefferson County Board of
Zoning Appeals (JCBZA) made an ad hoc decision to
include shooting ranges and the JCPC sought an
injunction to prohibit the shooting ranges.
Without citing any shooting range provision in the
JCZO, the Circuit Court specifically ordered the following:
The Chapos shall immediately cease and
desist in the operation of a tactical and test
firing shooting range at the Property, regardless of whether said operation is occurring in
an individual capacity or by and through the
operation of Big Shot, an entity under their
exclusive ownership and control. The Chapos
shall take all necessary steps to prevent any

4
other person or entity from operating a
tactical and test firing shooting range at the
Property, regardless of whether said operation is occurring in an individual capacity or
by and through the operation of a business
entity.
See October 17, 2017 Order, Appx. A, 10a.
Subsequent to the October 17, 2017, order and the
May 29, 2018, opinion of the Court of Appeal upholding the preliminary injunction, it was discovered that
the offices of the JCPC were vacant. A preliminary
injunction was issued against the Defendants.1 The
Court of Appeals upheld the preliminary injunction,
see Footnote 2, at page iii, above.
During the course of the proceedings the Defendants
were informed by the Jefferson County Clerk there
was no record of the individuals claiming to hold the
JCPC offices had taken and deposited the oaths of
office as required by IC §5-4-1-1.2(d). Consequently,
the Jefferson County Circuit Court lacked jurisdiction
because the offices of the JCPC, at the time of the
filing of the Complaint and the subsequent Amended
Compliant, were vacant as a matter of law per IC
§5-4-1-1.2(d).

1

The question presented to the Supreme Court deals only with
the question of applying the de facto officer doctrine to vacant
offices, where actions of the individuals claiming to hold the
vacant offices are repugnant to the Constitution and a trespass
upon the 2nd Amendment right to bear arms, not merely a
misapplication of the Indiana law making an office vacant.
Accordingly, because the appellate decision was not directly
involved with the question of de facto officer doctrine, it is not
included in the Appendix.

5
The Indiana Court of Appeals had jurisdiction to
review a denial of a Rule 60(B) pursuant to Trial Rule
60(B). Trial Rule 60(C) declares a denial of a Rule
60(B) motion a final judgment, which allows it to be
appealed as a final judgment. Indiana Appellate Rule
5 gave jurisdiction over the appeal of final judgments.
B. Course of Proceedings in Indiana Courts.
During the course of proceedings, the Defendants
discovered that the alleged officers of the JCPC had
violated IC §§5-4-1-1 and 5-4-1-1.2, by not taking an
oath under §5-4-1-1, which required an “oath to support
the Constitution of the United States and the
Constitution of the State of Indiana, and that the
officer or deputy will faithfully discharge the duties of
such office.” §5-4-1-1.2(c) mandated the oath under
§5-4-1-1 be taken by individuals appointed “to an office
of a political subdivision” “not later than thirty (30)
days after the beginning of the term of office.” §5-4-11.2(d) provided that if the individual “does not comply
with subsection (c), the office becomes vacant.”
Upon the discovery that the individuals claiming to
hold the JCPC offices had not taken the mandated
oath of office, it became evident that as a matter of law
the JCPC were vacant, because the individuals claiming
to hold the JCPC offices did not comply with §5-4-11.2(c). The Defendants filed a Rule 60(B)(6) motion
seeking relief from a void judgment due to the JCPC
offices being vacant and not having standing to initiate
a court action. The Rule 60(B) motion was denied
(Appx. B, starting at Appx. 11a.) and the Motion to
Correct Error was also denied (Appx. C, starting at
Appx. 14a). The Defendants appealed per Trial Rule
60(C) and Indiana Appellate Rule 5.

6
The Court of Appeals upheld the Jefferson County
Circuit Court decision to deny the Rule 60(B)(6) Motion
(Appx. D, starting at Appx. 28a) and the Petition to
Transfer to the Supreme Court of Indiana was denied
(Appx. E, staring at Appx. 36a). The Defendants in the
Indiana case now Petition the Supreme Court of the
United States for a Writ of Certiorari.
STATEMENT OF RELEVANT FACTS
The Petitioners (Defendants in the state case) Joseph
Chapo and Sherry Chapo are residents of Jefferson
County, Indiana. The Chapos are the owners of the
property at 10214 W. Deputy Pike Road, Deputy Indiana
47230. They have owned the property since 1991.
Shortly after they took possession of the property in
1991, the Chapos built and began to use and operate a
shooting range. They continued to use and operate the
shooting range since it was constructed. At the time of
the initial construction there was no ordinance
regulating shooting ranges, nor is there currently any
ordinance regulating shooting ranges.
The case of Ezell v. City of Chicago, 651 F.3d 684,
708 (7th Cir. 2011) ruled that a ban on shooting ranges
was “a serious encroachment on the right to maintain
proficiency in firearm use, an important corollary to
the meaningful exercise of the core right to possess
firearms for self-defense.” The Ezell decision was
decided on July 6, 2011.
Petitioner Deputy Big Shot LLC is a Limited Liability Company organized under the laws of Indiana on
October 23, 2012. Deputy Big Shot began leasing the
shooting range on 10214 W. Deputy Pike Road, Deputy
Indiana 47230 on October 24, 2012.

7
On November 7, 2012, the Jefferson County Board
of Zoning Appeals (JCBZA), without citing any ordinance regarding shooting ranges, denied a Conditional
Use Application for the Chapos’ shooting range solely
because of noise. The denial was made by a majority of
the JCBZA in spite of the ruling in Ezell, supra. The
denial was also made even though Wilson, the Zoning
Enforcement Officer, made it clear at the November 7,
2012 JCBZA hearing, “There is no ordinance on this
[noise], we don’t have any law on that.” The denial was
further made in violation of the Indiana Shooting
Range Protection Act, which protected prior existing
shooting ranges. Chairman Jacobson acknowledged
the existence of the Chapos’ shooting ranges.
After the Zoning Enforcement Officer issued an
Order of Enforcement on April 6, 2016, Sherry Chapo
responded on April 19, 2016 to the Order of
Enforcement with a letter that informed the Zoning
Enforcement Officer that “since 1991 the shooting
range is an accessory use to our farm,” and that
Attorney Magrath, attorney for the JCPC, through an
e-mail notified her that the JCPC was not able to
locate any records regarding her Open Records request
for a zoning ordinance provision regulating shooting
ranges prior to 1996, when the Indiana Shooting
Range Protection Act was passed, IC §§14-22-31.5-1
through 14-22-31.5-7.
Despite the known violation of the 2nd Amendment
and the Indiana Shooting Range Protection Act,
the individuals claiming to hold the offices of the
JCPC, held a meeting on April 20, 2016 and voted to
recommend litigation to the Jefferson County Board of
Commissioners to prohibit the use and operation of the
shooting range. None of the alleged members of the

8
JCPC had taken an oath to uphold the Constitution of
the United States as required by IC §5-4-1-1.2(c).
The Jefferson County Board of Commissioners
(JCBC) held a meeting on April 27, 2016 and did
not act on the JCPC’s recommendation for litigation.
Without an approval from the JCBC and without
having taken the required oath, the individuals
claiming to hold the vacant offices of the JCPC caused
the filing of a court action on May 25, 2016 to seek
an injunction to prohibit the use and operation of a
shooting range on Chapos’ property. The Complaint
was later amended to add Deputy Big Shot LLC.
A letter addressed to Sherry Chapo, dated February
25, 2019, from Jefferson County Clerk, Tabatha Eblen
stated that no oaths of office were found in the
Jefferson County Clerk’s Office for any of the following
individuals, Jeff Daghir, Lonnie Mason, Gene (Robert)
Riedel, Norbert Schafer, Jerry Yancey, Dennis Bowyer,
Virginia Franks, Warren Auxier, and Laura Boldery.
These individuals claimed to hold the offices of the
JCPC. The oath of office, pursuant to IC §5-4-1-1, also
included an oath to uphold the Constitution of the
United States Constitution and was mandated by
§5-4-1-1.2(c), or the offices would be vacant per §5-4-11.2(d).
A second letter was addressed to Sherry Chapo,
dated April 1, 2019, from Jefferson County Clerk,
Tabatha Eblen stating that no oath of office for 2012
were found in the Jefferson County Clerk’s Office for
any of the following individuals, Robert Johnson, Virginia
Franks, Jerry Yancy, Mike Shelton, and James
Griffith. The oath of office, pursuant to §5-4-1-1, also
included an oath to uphold the Constitution of the
United States Constitution. These individuals claimed
to hold the vacant offices of the JCBZA. A majority of

9
these individuals were the ones that voted to deny
use of the shooting range in violation of the 2nd
Amendment per Ezell, supra, and the Indiana Shooting Range Protection Act.
Through the discovery process, all of the individuals
claiming to hold the offices of the JCPC admitted that
they did not take an oath of office. All of the individuals claiming to hold the offices of the JCPC also
admitted that they did not file an oath of office. Thus,
they were all in violation of §5-4-1-1.2(c) and the JCPC
offices were vacant pursuant to §5-4-1-1.2(d).
The Petitioners made a direct constitutional challenge to the authority of the alleged officers, when
claiming to hold offices made vacant by Indiana law,
to initiate an action to enjoin the 2nd Amendment core
right to operate a shooting range,
The first time the Chapos raised the 2nd Amendment issue was on July 11, 2016, when they filed a
Rule 12(b) Motion to Dismiss the original Complaint.
It was then recommended by the senior judge for the
Chapos to amend their motion and include an answer.
The Chapos again raised the 2nd Amendment violation in their Amended Rule 12(b) Motion to Dismiss
and Answer, which was filed on August 2, 2016. With
Deputy Big Shot LLC now added as a defendant, the
Petitioners again raised the 2nd Amendment, when
they filed their Rule 12(b) Motion to Dismiss the
Amended Complaint on February 1, 2017. In their
conclusion of the section addressing the violation of
the 2nd Amendment the Petitioners stated,
Thus, pursuant to both the Ezell cases, the
attempt by the JCPC to enjoin the defendant
from operating a shooting range is unconstitutional under the 2nd Amendment to the

10
United States Constitution. Because the
Amended Complaint is attempting to violate
the Defendants’ 2nd Amendment right to
bear arms, it fails to state a claim upon which
the Court can grant relief. Accordingly, the
Amended Complaint must be dismissed
under Rule 12(B)(6).
The Rule 12(b) Motion to Dismiss was denied on
October 17, 2017 in an order that did not address the
2nd Amendment issue raised in the Motion to Dismiss.
The order specifically ordered the Chapos and Deputy
Big Shot LLC to cease and desist “the operation of a
tactical and test firing shooting range,” either in an
individual or an entity capacity. The Defendants were
further ordered to “take all necessary steps to prevent
any other person or entity from operating a tactical
and test firing shooting range at the Property.” See
October 17, 2017 Order, Appx. A at Appx. 10a.
The 2nd Amendment issue was again referred to in
the Rule 60(B)(6) Motion, which gave a reference the
2nd Amendment being raised in the concurrently filed
Motion for Judgment on the Pleadings, which was
filed the same day, April 19, 2019. The Motion for
Judgment on the Pleadings was denied on November
25, 2019 without explanation. The reasons for the
denial of the Motion for Judgment on the Pleadings
were subsequently provided when the Circuit Court
denied the Motion to Correct Error, Appx. C, beginning at Appx. 21a.
The direct challenge regarding the oath of office was
made in the Rule 60(B)(6) Motion filed on April 19,
2019. The Petitioners specifically asserted the October
17, 2017 order, which explicitly prohibited them from
operating a shooting range, was a void judgment
because the JCPC had no standing due the JCPC

11
having vacant offices at the time the court action
was filed. The Rule 60(B)(6) Motion was denied on
November 25, 2019 without explanation. The reasons
for the denial of the Rule 60(B)(6) Motion were subsequently provided when the Circuit Court denied the
Motion to Correct Error, Appx. C. at Appx. 19a. The
Circuit Court ruled the Rule 60(B)(6) Motion was not
timely, because it rejected the Rule 60(B)(6), which
was based on a void judgment, and improperly treated
the motion as a Rule 60(B)(2), which is based on newly
discovered evidence. The Circuit Court also incorrectly
ruled that the direct challenge of the lack of oath was
a collateral attack and improperly applied the de facto
officer doctrine.
A summary judgment motion is before the Jefferson
County Circuit Court pending the outcome of the appellate process for the Rule 60(B) Motion. Thus, neither a
summary judgment, nor a trial, has addressed the
facts of the case.
REASONS FOR GRANTING
A WRIT OF CERTIORARI
I. Introduction
Under existing Indiana law every officer of a
political subdivision is mandated to take an oath of
office, which includes an oath to uphold the Constitution of the United States, before entering into the
office. not later than thirty (30) days after the
beginning of the term of office, or the office becomes
vacant. The 7th Circuit in Ezell v. City of Chicago
ruled that prohibition of shooting ranges was a core
right of the 2nd Amendment. Persons claiming to hold
vacant offices initiated a court action to prohibit the
Petitioner’s shooting range in violation of the 2nd
Amendment.

12
In addition to the jurisdiction requirements of the
Supreme Court as stated above in 28 U.S.C. §1257(a),
Petitioners Joseph Chapo, Sherry Chapo and Deputy
Big Shot LLC (hereinafter referred to collectively as
Petitioners). are also mindful of the criteria set forth
in Supreme Court Rule 10 which are guides to
determine whether the Court should review a decision
of a state court. The criterium which is applicable in
this case is Rule 10(c), which states:
a state court or a United States court of
appeals has decided an important question of
federal law that has not been, but should be,
settled by this Court, or has decided an
important federal question in a way that
conflicts with relevant decisions of this Court.
A petition for a writ of certiorari is rarely
granted when the asserted error consists of
erroneous factual findings or the misapplication of a properly stated rule of law.
28 U.S.C. §1257(a) provides in pertinent part,
Final judgments or decrees rendered by the
highest court of a State in which a decision
could be had, may be reviewed by the Supreme
Court by writ of certiorari . . . or where the
validity of a statute of any State is drawn in
question on the ground of its being repugnant
to the Constitution, treaties, or laws of the
United States, or where any title, right,
privilege, or immunity is specially set up or
claimed under the Constitution or the treaties
or statutes of, or any commission held or
authority exercised under, the United States.

13
With these principles in mind, the Petitioners assert
the actions of the individuals claiming to hold the
vacant offices of the JCPC are repugnant to the
Constitution and a trespass and infringement upon
the Petitioners’ 2nd Amendment right to bear arms,
and are not merely a misapplication of the Indiana law
making an office vacant. As detailed below, in light of
Supreme Court decisions, the 2nd Amendment Right
to bear arms, and the state courts’ refusal to apply
applicable law, structural constitutional error was
committed. In upholding the ruling of the Jefferson
County Circuit Court, the Indiana Court of Appeals
opinion and Indiana Supreme Court’s denial of the
Petition for Transfer, the state courts failed to protect
the Petitioners’ 2nd Amendment right by ignoring
the IRC §5-4-1-1.2(c) and (d), which declared local
subdivision offices to be vacant when the individuals
appointed to said offices failed to comply with taking
the oath required under §5-4-1-1 within thirty days of
the beginning of the term of office. The decisions of the
Indiana courts departed from the normal and usual
course of judicial proceedings by not conforming their
decisions to the 2nd Amendment, the prevailing and
relevant Supreme Court cases regarding the exception
to the de facto officer doctrine, and Indiana law. The
Petitioners also seek review of the important federal
question of whether the de facto officer doctrine can be
applied to vacant offices where the individual claiming
to hold the vacant offices are making decisions directly
abridging the Constitutional rights of citizens. This
question of whether the de facto officer doctrine can
be applied to vacant offices mandated by law has not
yet been settled by this Court, especially where the
claimed Constitutional rights are infringed.

14
II. Question for Review.
Whether the de facto officer doctrine can be
applied to individuals claiming to hold a
vacant office of a political subdivision made
vacant by the General Assembly statute
declaring the office vacant, if an appointed
officer does not take the mandatory oath to
uphold the United States Constitution, where
an injunction is sought by the vacant offices
to prohibit the use and operation of a shooting
range in violation of the 2nd Amendment
right to bear arms?
A. Introduction.
To reach an accurate response to the above question
presented for review, three sub-questions must be
answered. There are:
Subsidiary question 1 – Whether the
Supreme Court has jurisdiction to review the
decisions of Indiana State courts that apply
the de facto officer doctrine, where the individuals claiming to hold vacant offices violate
a protected constitutional right?;
Subsidiary question 2 – Whether the failure to take an oath to uphold the Constitution
of the United States is a constitutional structural error, where the individuals claiming to
hold vacant offices initiate a court action to
prohibit the 2nd Amendment right of persons
to use and operate a shooting range?; and
Subsidiary question 3 – Whether the de
facto officer doctrine can be applied to individuals claiming to hold vacant offices, where
the offices are vacant per Indiana law?

15
Because the responses to these three subsidiary
questions are in the affirmative, it is clear that the
response to the question presented must be negative,
i.e., the de facto officer doctrine cannot be applied to
vacant offices that seek an injunction to prohibit a
constitutionally protected 2nd Amendment right of the
use and operation of a shooting range.
B. Supreme Court Has Jurisdiction to
Review the Decisions of State Courts.
Subsidiary Question 1 – Whether the
Supreme Court has jurisdiction to review the
decisions of Indiana state courts that apply
the de facto officer doctrine, where the individuals claiming to hold vacant offices violate
a protected constitutional right?
The pivotal factor in the question presented for a
Writ of Certiorari is the application of the de facto
officer doctrine to individuals claiming to hold vacant
offices and making decisions that directly and adversely
affect the core 2nd Amendment right to maintain
proficiency of firearms through the use and operation
of a shooting range. The Indiana courts erroneously
upheld the application of the de facto officer status to
individuals who caused a court action to seek an
injunction to prohibit the use and operation of a
shooting range of the Petitioners. The injunction is a
violation of the 2nd Amendment per Ezell, supra. In
addition, the application of the de facto doctrine is in
violation of the Indiana State law, which declares an
office of a political subdivision vacant because the
individual appointed to the office failed to take an oath
of office, which included an oath to uphold the United
States Constitution. Under these circumstances the
question is, “Can the United States Supreme Court
review decisions of the Indiana State courts, when the

16
Indiana Supreme Court denied the petition for Transfer
from the Court of Appeal to the Supreme Court
without comment?”
The Supreme Court has answered this question in
the affirmative. Norton v. Shelby County, 118 U.S.
425, 439 (1886) addressed the application of the de
facto officer doctrine in relation to the “eligibility and
election or appointment of their officers.” The Norton
court declined to review the state issue, because there
was “no principle of the federal constitution, or of any
federal law, is invaded, and no rule of general or
commercial law is disregarded.” In reaching this
decision the Norton Court recognized an exception to
the refusal to review state court decisions by holding,
Upon the construction of the constitution and
laws of a state, this court, as a general rule,
follows the decisions of her highest court,
unless they conflict with or impair the
efficacy of some principle of the federal
constitution, or of a federal statute, or a
rule of commercial or general law.
Thus, the Supreme Court in Norton has made it
clear that it can entertain the review of a state court
where the decision of the state court conflicts with, or
impairs, “the efficacy of some principle of the federal
constitution.” In this case it is the confliction, or
impairment of the Petitioners’ 2nd Amendment core
right to use and operate a shooting range.
The Norton exception has been formalized in the
Supreme Court rule on its jurisdiction. Supreme Court
Rule 10(c) states it may grant a Writ of Certiorari,
when,
a state court or a United States court of
appeals has decided an important question of

17
federal law that has not been, but should be,
settled by this Court, or has decided an
important federal question in a way that
conflicts with relevant decisions of this Court.
The Norton decision was addressing the application
of a de facto doctrine where the plaintiff in the state
case was asserting the de facto officer status in the
state court, id. at 435. While the Norton court did list
the elements of the de facto officer doctrine, it declined
to overturn the state court decision, because it did not
involve a federal constitutional principle. See Norton,
supra, 118 U.S. at 439, “In these cases no principle
of the federal constitution, or of any federal law, is
invaded, and no rule of general or commercial law is
disregarded.” Petitioners, unlike the plaintiffs in Norton,
are presenting a constitutional question, which involves
a constitutional structural error as discussed below.
The Supreme Court in Ryder v. United States, 515
U.S. 177, 180 (1995) held that normally,
The de facto officer doctrine confers validity
upon acts performed by a person acting under
the color of official title even though it is later
discovered that the legality of that person’s
appointment or election to office is deficient.
The normal application of the de facto officer doctrine was rejected in the Ryder case. In rejecting the
application of the de facto officer doctrine, the Ryder
court, however, also held that the de facto officer doctrine is generally not applicable to a timely
constitutional challenge, Ryder, 515 U.S. at 182-183,
We think that one who makes a timely
challenge to the constitutional validity of the
appointment of an officer who adjudicates his
case is entitled to a decision on the merits of

18
the question and whatever relief may be
appropriate if a violation indeed occurred.
The case of Glidden Co. v. Zdanok, 370 U.S. 530, 536
(1962) also declined to apply of the de facto officer
doctrine by noting the prior cases addressing the de
facto officer doctrine did not involve “basic constitutional protections designed in part for the benefit of
litigants.” In other words, the Glidden court ruled that
the de facto officer doctrine cannot be used to validate
actions of individuals whose appointments were
directly challenged because of constitutional issues.
Indiana law is consistent with these three Supreme
Court cases. In Carty v. State, 421 N.E.2d 1151, 1154
(Ind.App.1981) the court held, “The validity of a de
facto officer’s acts may only be challenged directly
against the individual who purports to hold the office.”
The Petitioner did directly challenge the validity of the
individuals claiming to hold the vacant offices of the
JCPC. Furthermore, the direct challenge was made to
protect their constitutional rights under the 2nd
Amendment.
The exceptions recognized by Norton, Ryder, Glidden
and Carty cases were not applied by the Indiana
courts. When the Circuit Court denied the Motion to
Correct Error at ¶6 in Appx. 26a, the Court stated,
The constitutional claims have previously
been addressed in prior court hearings and
orders. A set of zoning regulations that have
the effect of limiting where a shooting range
may be located do not run afoul of the protections on the Second Amendment. Ezell I, Ezell
v. City of Chicago, 651 F.3d 684 (7th Cir.
2011); Ezell II, Ezell v. City of Chicago, 846
F. 3d 888 (71h Cir. 2017). No evidence that

19
the Jefferson County Zoning Ordinance as
applied has the effect of severely restricting
the rights of the citizens of Jefferson County
in firearm use.
There are two obvious and critical errors in the
foregoing statement by the Circuit Court. First, the
constitutional claims raised were never addressed in
any order by the Circuit Court, nor by Court of Appeals
in the interlocutory appeal decided on May 29, 2018,
see Chapo v. Jefferson County Plan Commission,
39A05-1612-CT-2840, 102 N.E.3d 354 (Ind. App. May
29, 2018).
Second, there is, and has been, no zoning regulation
relating to shooting ranges. The denial of the shooting
range by the JCBZA was an ad hoc decision forbidden
by Indiana case law. See Sauer v. Board of Zoning
Appeals, 629 N.E.2d 893, 897-898 (Ind.App. 1994), in
which the court found that it is a derogation of the
common law to restrict the free use of property. Such
an ordinance must be strictly construed. The Sauer
court also stated that it would “construe the ordinance
to favor the free use of land and will not extend
restrictions by implications.” At page 899 the Sauer
court further stated, “A Zoning Board may not on an
ad hoc basis impose a condition or requirement not
contained in the zoning ordinance.” See also Ayers v.
Porter County Plan Commission, 544 N.E.2d 213, 219
(Ind.App. 1989).
Accordingly, the holding by the Circuit Court that
there was, “No evidence that the Jefferson County
Zoning Ordinance as applied has the effect of severely
restricting the rights of the citizens of Jefferson County
in firearm use,” was categorically not supported by the
record.

20
The bottom line is, the infringement and/or abridgment of the Petitioners’ 2nd Amendment right to bear
arms in the denial of the core right to the use of a
shooting range were completely sidestepped by both
the Circuit Court and the Court of Appeals.
Thus, in light of the foregoing, the response is clear
to,
Subsidiary Question 1 – Whether the
Supreme Court has jurisdiction to review the
decisions of Indiana state courts that apply
the de facto officer doctrine, where the individuals claiming to hold vacant offices violate
a protected constitutional right?
When the actions of the alleged de facto officers seek
to limit a constitutionally protect right, i.e., the core
right of the 2nd Amendment to maintain proficiency
in the operation of firearms, the Supreme Court of the
United States has jurisdiction to grant a Writ of
Certiorari to review a state court decision violating
that constitutional right.
C. The Failure to Take an Oath to Uphold
the Constitution of the United States is
a Structural Error.
Subsidiary Question 2 – Whether the
failure to take an oath to uphold the
Constitution of the United States is a constitutional structural error, where the
individuals claiming to hold the vacant offices
initiate a court action to enjoin the use and
operation of a shooting range?
The Indiana Court of Appeals in Appx. D, at Appx.
32a to 33a, incorrectly agreed with the JCPC that its
members qualified as de facto officers. The Court of

21
Appeals quoted the de facto officer doctrine as stated
in Ryder, see the Ryder quote supra. The opinion then
quoted Fields v. State, 91 N.E.3d 597, 600 (Ind. Ct.
App. 2017), which also quoted Ryder,
This doctrine “springs from the fear of the
chaos that would result from multiple and
repetitious suits challenging every action
taken by every official whose claim to office
could be open to question, and seeks to protect
the public by insuring the orderly functioning
of the government despite technical defects
in title to office.” Ryder, 515 U.S. at 180-81,
115 S.Ct. 2031.
(Emphasis added)
The Indiana Court of Appeals opinion did not regard
the exception used by the Norton court, or the Ryder
court. The Norton court exception applied, when “the
efficacy of some principle of the federal constitution” is
present. The Ryder court exception held that the de
facto officer doctrine is “not applicable to a timely
constitutional challenge.” A third Supreme Court case,
Glidden Co., supra, 370 U.S. at 536, ruled that when
“basic constitutional protections designed in part for
the benefit of litigants,” are involved the de facto
officer doctrine is not applicable. In other words, where
there is a constitutional challenge and/or a constitutional infringement, the de facto officer doctrine is to
be rejected.
In addressing the Appointments Clause in the
United States Constitution at Article II, §2, clause 2,
the Ryder court declared,
The Clause is a bulwark against one branch
aggrandizing its power at the expense of
another branch, but it is more: it “preserves

22
another aspect of the Constitution’s structural integrity by preventing the diffusion of
the appointment power.” Freytag v. Commissioner, 501 U.S. 868, 878 (1991)
(Emphasis added)
The failure to preserve the “structural integrity” is
otherwise known as a structural error. In Weaver v.
Massachusetts, 137 S.Ct. 1899, 1907 (2017) the Weaver
court held, “the defining feature of a structural error
is that it “affect[s] the framework within which the
trial proceeds,” rather than being “simply an error in
the trial process itself,” citing Arizona v. Fulminante,
499 U.S. 279, 310 (1991). The court in Fulminante, 499
U.S. at 294 also equated “structural error” with
“structural integrity,” when it strikes “at fundamental
values of our society.”
The 2nd Amendment is a fundamental value of our
society. The 2nd Amendment protects the citizens’
inalienable “right of the people to keep and bear Arms,
shall not be infringed.” The 14th Amendment to the
United States also protects the state citizens, see
Ezell, supra, 651 F3d at 690, citing McDonald v. City
of Chicago, Illinois, 561 U.S. 742, 750 and 791, 130
S.Ct. 3020 (2010) (at page 750 “we hold that the
Second Amendment right is fully applicable to the
States,” and at page 791 “We therefore hold that the
Due Process Clause of the Fourteenth Amendment
incorporates the Second Amendment right recognized
in Heller”). The cite for Heller is District of Columbia
v. Heller, 554 U.S. 570 (2008).
The 14th Amendment, Clause 1 states,
SECTION. 1. All persons born or naturalized
in the United States and subject to the
jurisdiction thereof, are citizens of the United

23
States and of the State wherein they reside.
No State shall make or enforce any law
which shall abridge the privileges or
immunities of citizens of the United States;
nor shall any State deprive any person of life,
liberty, or property, without due process of
law; nor deny to any person within its
jurisdiction the equal protection of the laws.
(Emphasis added)
Thus, the 14th Amendment protects the Petitioners
from the Indiana State courts’ violation of their 2nd
Amendment right.
In addition, the Indiana Constitution’s Bill of
Rights, Article I, Section 32 also protects the Indiana
citizen, i.e. “The people shall have a right to bear arms,
for the defense of themselves and the State.” The
Indiana Bill of Rights further protects the rights of the
citizen by stating at Section 26, “The operation of the
laws shall never be suspended, except by the authority
of the General Assembly.” This means that the court
cannot ignore the law in favor of a judicial decision.
It is a fundamental principle in Indiana that the
law, as passed by the General Assembly, must be
enforced. It cannot be ignored. This fundamental
principle is contained in the Judicial Code of Conduct.
Pursuant to Rule 2.2 a judge has a responsibility to
uphold and apply the law. Indeed, Rule 2.2 specifically
requires a judge to uphold and apply the law. By
failing to apply the law, i.e., IC §5-4-1-1.2(c) and (d),
the judges of the Indiana courts not only violated their
responsibility, but they also committed structural
error.
Since the failure to apply IC §5-4-1-1.2(c) and (d)
incorrectly permitted the courts, both the Jefferson

24
County Circuit Court and the Indiana Court of Appeals,
to apply the de facto officer status to individuals who
failed to take an oath to uphold the Constitution of the
United States, the Petitioners were denied their
protection of the 2nd Amendment right to operate a
shooting range. The Indiana courts in effect suspended
the operation of IC §5-4-1-1.2 (c) and (d), Thus, the
failure of the individuals to take an oath to uphold the
United States Constitution, when the offices they were
claiming to hold were vacant, is not a technical defect,
but a constitutional structural error.
Thus, based on the foregoing, the response is clear
to,
Subsidiary question 2 – Whether the
failure to take an oath to uphold the
Constitution of the United States is a constitutional structural error, where the individuals
claiming to hold vacant offices initiate a court
action to prohibit the 2nd Amendment right
of persons to use and operate a shooting
range?
Where a constitutional right is infringed by the
actions of individuals not taking an oath to the United
States Constitution, a constitutional structural error
is present.
D. The De Facto Officer Doctrine Cannot
Be Applied to Offices Made Vacant by
Indiana Law.
Subsidiary question 3 – Whether the de
facto officer doctrine can be applied to
individuals claiming to hold vacant offices,
where the offices are vacant per Indiana law?

25
While the de facto officer doctrine is well established
and is normally applicable where there is a technical
defect in the appointment of an officer, it is not,
however, applicable where there is a constitutional
structural error. The de facto officer doctrine has never
been used by any court to deny relief to a defendant
facing the infringement of a constitutional right by an
alleged plaintiff, which has vacant offices. And
nothing in the principles or history of the de facto
officer doctrine justify what the Jefferson County
Circuit Court and the Indiana Court of Appeals did,
i.e., by-pass the law that made the offices of JCPC
vacant.
The Indiana courts are unanimous in declaring that
the courts are not above the law. See the following:
Needham v. Suess, 577 N.E.2d 965, 968 (Ind.App. 4
Dist. 1991) (“As no court is above the law, and as all
courts must enforce the law as it is written.”); Scudder
v. State, 124 N.E.3d 638, ¶11 (Ind.App. 2019) (“‘The
judicial function is to apply the law as enacted by the
legislature.’”); Murray v. Conseco, Inc., 795 N.E.2d
454, 457 (Ind. 2003); and (“However, as the Court of
Appeals pointed out, public policy is a matter for the
General Assembly subject only to constitutional limitations on legislative authority. On this issue the
General Assembly’s expression of its policy is quite
clear.”).
There is a truism that says, “What Congress gives,
it can take away.” This principle has long been
recognized in Indiana. See State ex rel. Schroeder v.
Morris, 199 Ind. 78, 87, 155 N.E. 198 (Ind. 1927),
The city, its officers, whether elective or
appointive, of whatever grade, must take
notice that the legislative authority, except as
restrained by the Constitution, “is at all times

26
absolute with respect to all offices within its
reach. It may at pleasure create or abolish
them, or modify their duties.” It may also
shorten or lengthen the term of any office
created by it not longer than four years. Art.
15, § 2, Indiana Constitution.
The General Assembly of Indiana created the offices
of the JCPC. Through the enactment of IC §5-4-1-1(a)
it required all officers of a political subdivision to take
an oath to uphold the Constitution of the United
States.
Indiana courts have held that the failure of an
officer to take the required oath under IC §5-4-1-1 is a
“technical defect.” See Fields v. State, 91 N.E.3d 597,
600 (Ind. Ct. App. 2017). As support for its use of the
term “technical defect” the Fields quoted Supreme Court
case of Ryder, supra. Fields court stated at page 600,
This doctrine “springs from the fear of the
chaos that would result from multiple and
repetitious suits challenging every action
taken by every official whose claim to office
could be open to question, and seeks to protect
the public by insuring the orderly functioning
of the government despite technical defects in
title to office.” Ryder, 515 U.S. at 180-81, 115
S.Ct. 2031.
The Fields decision did not address the Ryder
exception to the application of the de facto officer
doctrine. That exception is cited above, where the
Ryder court ruled that the de facto officer doctrine is
not applicable when there is a timely constitutional
challenge, Ryder, supra, 515 U.S. at 182-183. The
Fields case also did not involve the office of a
political subdivision. Nor did it involve a con-

27
stitutional infringement or challenge. Thus, the
Fields case did not address, or apply IC §5-4-1-1.2(c)
and (d).
Through IC §5-4-1-1.2(c) and (d), the General
Assembly mandated that all appointed officers of
political subdivisions take an oath within thirty days
of the beginning of the term of office, or the office
became vacant. As a result of individuals appointed to
the JCPC offices not taking the oath to uphold the
Constitution of the United States within thirty days
required by §5-4-1-1.2(c), the JCPC offices became
vacant as a matter of law per §5-4-1-1.2(d). The
Constitution of Indiana required that vacant office can
only be filled by the appointing authority, see Indiana
Constitution, Article 6, Section 9, which mandated
that vacancies be filled pursuant to law (“Vacancies in
county, township, and town offices, shall be filled in
such manner as may be prescribed by law). None of the
vacant JCPC offices were filled pursuant to the
Indiana Constitution or Indiana law. As a result, the
failure to apply IC §5-4-1-1.2(c) and (d) is a constitutional structural error as discussed in the previous
section.
Furthermore, the court in Fields, supra, 91 N.E.3d
at 598 in applying the “technical defect” language
reached its conclusion by citing Carty, supra, for the
elements of a de facto officer, Fields, supra, 91 N.E.3d
at 600. But Carty, supra, 421 N.E.2d at 1154, specifically held “One who holds office under the color of an
election or an appointment and discharges the purported duties of office in full view of the public
without being an intruder or usurper, is at least a
de facto official.” (Emphasis added).

28
Here the individuals claiming to hold the vacant
JCPC offices were not appointed to the offices after the
vacancy. Thus, they were usurpers per Carty.
The Carty decision was made in 1981, just after IC
§5-4-1-1.2 was enacted in 1980. The original §5-4-1-1.2
only covered “officers.” It was, however, amended by
P.L.26-2000, SEC.32 by adding individuals “appointed.”
Thus, the current version of §5-4-1-1.2 is applicable to
appointed individuals and their offices are made
vacant if they do not take the oath to uphold the
Constitution as mandated by law. Thus, the individual
claiming to hold the vacant offices of the JCPC are
usurpers according to §5-4-1-1.2 and Carty.
Neither Carty, nor Fields addressed §5-4-1-1.2,
because neither were dealing with vacant offices, nor
were they dealing with officers of a political subdivision. Yet the Jefferson County Circuit, in its April 17,
2020 Order, instead of applying §5-4-1-1.2, which
specifically addressed vacant offices and officers of a
political subdivision, relied on both Carty and Fields.
See Appx. 20a-21a. The same is true for the Court of
Appeals Opinion, Appx.33a. In its January 22, 2021
opinion, it also relied on Fields and Carty. Contrary to
the April 20th Order of the Circuit Court and the
January 22nd Opinion of the Court of Appeals, Carty
and §5-4-1-1.2 clearly establish individuals claiming to
hold vacant offices are usurpers. Thus, they do not
meet the qualifications of de facto officers.
Because there is a constitutional structural error
due to the failure of the individuals to take an oath to
the United States Constitution where there is a direct
constitutional challenge and an infringement of a
right guaranteed by the Constitution, the application
of the de facto officer doctrine cannot be applied to the
vacant JCPC offices. The de facto officer doctrine does

29
not fill the vacancies pursuant to the law. The de facto
officer doctrine is not applicable. Thus, the individuals
claiming to be officers of the vacant JCPC, with having
not been appointed after the vacancy occurred are
usurpers.
The Court of Appeals in its January 22, 2021 opinion
actually agreed with the Petitioners that a usurper
cannot be a de facto officer. See Appx. 34a,
The Chapos argue the JCPC members “were
usurpers and not entitled to the status of de
facto officers[.]” Appellant’s Reply Br. p. 9. To
be sure, a usurper cannot be a de facto
officer. Morten v. City of Aurora, 96 Ind. App.
203, 182 N.E. 259, 262 (1932). But a usurper
is “one who intrudes himself into an
office which is vacant, or ousts the
incumbent, without any color of title[.]”
Id. (citation omitted). And here, the JCPC
members were appointees with color of title,
as explained above. They are not usurpers.
(Emphasis added)
Unfortunately, The Court of Appeals in its January
22, 2021 opinion at Appx. 34a cited United States v.
Royer, 268 U.S. 394, 397-398 (1925) to support its
erroneous conclusion that the individuals claiming to
be JCPC member were not usurpers. The Court of
Appeals used Royer for authority to apply the de facto
officer doctrine to a vacant office. Royer does not,
however, support the Court of Appeals conclusion for
two reasons. First, Royer was “ordered by competent
authority to assume the rank of major,” id. at 396. In
the Petitioners’ case there was no competent authority
appointing the individuals claiming to the vacant
JCPC office. Since the JCPC offices were vacant as a
matter of law per §§5-4-1-1.2(c) and (d), the individu-

30
als claim to the offices had no color of title as did Royer.
The only way they could have color of title to the offices
was to be appointed to the vacant office as required by
the Indiana Constitution. See Indiana Constitution,
Article 6, Section 9 at Appx. 44a.
Second, the Royer court also did not involve a
constitutional infringement. In the Petitioners’ case
the 2nd Amendment was abridged by the individuals
claiming to hold vacant offices. Thus, the Court of
Appeals reliance on Royer was misplaced.
While the individuals claiming the vacant JCPC
offices were usurpers, they initiated a court action for
an injunction against the Petitioners to prohibit them
from operating a shooting range in violation of the 2nd
Amendment, a constitutional error was committed and
the de facto officer doctrine is not applicable to them.
The truism quoted above has equal application and
force through the doctrine of separation of powers. A
corollary to the maxim is, “What the General Assembly takes away, the court cannot give back.” The
General Assembly, which is the legislative authority
of Indiana, unless restrained by the Constitution, “is
at all times absolute with respect to all offices within
its reach.”
Here, the General Assembly, through IC §§5-4-11.2(c) and (d), mandated that officers of a political
subdivision take an oath of uphold the Constitution of
the United States, or the office would be vacant. Under
the separation of powers doctrine, the General Assembly
has the sole power to take away the ability to hold an
office. The courts have no power to give the office back
to the violator.

31
Thus, in light of the foregoing, the response to,
Subsidiary question 3 – Whether the de
facto officer doctrine can be applied to
individuals claiming to hold vacant offices,
where the offices are vacant per Indiana law?
is also clear. Where an office of a political subdivision is made vacant by law, because of a failure to take
an oath to uphold the Constitution of the United
States and constitutional right is infringed by the
actions of individuals not taking an oath, the vacancy
cannot be filled by the de facto officer doctrine.
CONCLUSION
The Petitioners Joseph Chapo, Sherry Chapo and
Deputy Big Shot LLC, have shown the three subsidiary questions have affirmative responses. They have
shown that the Supreme Court has jurisdiction to
grant a Writ of Certiorari to review a state court decision where a state court commits a constitutional error
that limits the 2nd Amendment right to bear arms by
prohibiting the operation of a shooting range.
The Petitioners have also shown where a constitutional right is infringed by the actions of individuals
not taking an oath to the United States Constitution,
a constitutional structural error is present.
Finally, the Petitioners have shown Indiana law
mandates officers appointed to political subdivisions
to take an oath to uphold the Constitution to the
United States, or the offices become vacant. Where an
office of a political subdivision is made vacant by law,
because of a failure to take an oath to uphold the
Constitution of the United States and a constitutional
right is infringed by the actions of an individual not

32
taking an oath, the vacancy cannot be filled by the de
facto officer doctrine.
Thus, de facto officer status cannot be applied to
individuals claiming to hold a vacant office of a political subdivision made vacant by a General Assembly
statute making the office vacant, if an appointed
officer does not take the mandatory oath to uphold the
United States Constitution. This is especially true
where an injunction is sought by the political subdivision with vacant offices to prohibit the use and
operation of a shooting range in violation of the 2nd
Amendment right to bear arms.
Because this is a question that touches all citizens
affected by decisions of individuals that claim to hold
vacant offices and that directly and adversely affect
constitutional rights of the citizen, the question is an
important issue that has not been decided, but should
be settled by this Court.
In addition, the General Assembly passed the
Shooting Range Protection Act in 1996 to preserve
existing shooting ranges. The General Assembly also
passed IC §§5-4-1-1.2(c) and (d) to safeguard the
Indiana citizens’ constitutional rights. To allow a state
court to by-pass these important and vital protections
sets a dangerous and unparalleled precedent to other
state courts and leaves citizens, whose federal constitutional rights have been violated, with no recourse to
protect their 14th Amendment rights, except the
Supreme Court of the United States.

33
Accordingly, the Petitioners respectfully request the
Supreme Court to grant their Petition for a Writ of
Certiorari for the question and its subsidiary questions presented.
Respectfully submitted,
CHARLES E. MCFARLAND
Counsel of Record
338 Jackson Road
New Castle, KY 40050
(502) 845-2754
mcfarlandc@bellsouth.net
Counsel for Petitioners
August 25, 2021

APPENDIX

1a
APPENDIX A
STATE OF INDIANA
IN THE JEFFERSON CIRCUIT COURT
————
Cause No: 39C01-1605-CT-380
————
JEFFERSON COUNTY PLAN COMMISSION,
Plaintiff,

vs.

JOSEPH CHAPO, SHERRY CHAPO, and
DEPUTY BIG SHOT, LLC
Defendants.
————
Special Judge Jeffrey Sharp
————
October 17, 2017
————
ORDER ON DEFENDANT’S MOTION TO
DISMISS, AND PLAINTIFF’S
CITATION FOR CONTEMPT
This case submitted for hearing on September 7,
2017, to the Jefferson Circuit Court, Special Judge
Jeffery Sharp presiding, on the Defendants’ Motion
to Dismiss Amended Complaint Filed on February
1, 2017 and on the Plaintiff’s Amended Citation
for Contempt and Motion for Enforcement filed
July 14, 2017. The Plaintiff Jefferson County Plan
Commission (the JCPC) appeared by Commission
President, Lonnie Mason, and by counsel, Patrick

2a
Magrath the Defendants Joseph and Sherry Chapo
(the Chapos) appeared in person and by counsel,
Charles McFarland, and the Defendant Deputy Big
Shot, LLC Shot) appeared by owners, Joseph and
Sherry Chapo, and by counsel, Charles McFarland.
Procedural History Relevant to Current Issues
1. On May 25, 2016, the JCPC filed a complaint
against the Chapos for enforcement of the
Jefferson County Zoning Ordinance (JCZO).
2. On July 11, 2016, the Chapos filed a Motion
to Dismiss.
3. On August 9, 2016, the JCPC filed a Motion
for Preliminary Injunction.
4. On October 12, 2016, the case was submitted
for hearing to the Jefferson Circuit Court,
Judge Darrell Auxier presiding.
5. On November 17, 2016, Judge Auxier issued
an Order Granting Preliminary Injunction.
6. On November 23, 016, Judge Auxier issued
an Order Vacating the Preliminary Injunction
citing his intent to recuse himself.
7. On November 23, 2016, Judge Auxier issued
an Order Recusing himself to avoid the
appearance of impropriety.
8. On December 5, 2016, Special Judge Sharp
issued an Order accepting appointment.
9. On December 12, 2016, the Chapos filed a
Motion to Stay the vacated November 17,
2016, Order Granting Preliminary Injunction.

3a
10. On December 14, 2016, the case was submitted for hearing to the Jefferson Circuit Court,
Special Judge Jeffery Sharp presiding, on all
pending issues.
11. On December 20, 2016, the JCPC filed an
amended complaint against the Chapos and
Big Shot for enforcement of the JCZO.
12. On January 4, 017, the Court issued an
Order on all pending issues wherein:
a. The Chapos’ Motion to Dismiss was denied.
b. The JCPC’s Motion for Preliminary
Injunction was granted.
c. The Chapos’ Motion for Stay was denied.
13. On January 24, 2017, the Court of Appeals
issued an Order granting the Chapos’ request
to tender an Amended Notice of Appeal to
include the January 4, 2017 Order and denying the Chapos’ Motion for Stay.
Findings of Fact
1. The Chapos are the owners of certain real
property located at 10214 W. Deputy Pike
Road, Jefferson County, Deputy, Indiana
(“the Property”).
2. The Complaint and Amended Complaint filed
by the JCPC concisely states the JCPC’s
standing to bring this action for enforcement, the JCPC,s claim that the Chapos and
Big Shot are putting the Property to a use
that requires a conditional use permit, the
JCPC’s claim that the Chapos and Big Shot
have failed to obtain the required permit

4a
prior to proceeding with the use, and the
JCPC’s request for an injunction and fines.
3. On September 17, 2012, Chapos filed an
application for conditional use to include “in
the future and Indoor/Outdoor tactical and
test firing range to be marketed to professional marksmen, law enforcement and
light military forces in the region under
(Conditional Use under 4739 in Section 7.00
– official schedule of district regulations).”
4. On October 23, 2012, the Chapos registered
a limited liability corporation in the State of
Indiana under the name Deputy Big Shot,
LLC (“Big Shot”). The Chapos are the sole
owners and operators of Big Shot.
5. On April 16, 2016, the Chapos announced
the “Grand Opening” of the Big Shot business including the disputed tactical and test
firing/shooting range.
6. The Chapos, by affidavit and testimony,
assert the disputed tactical and test firing/
shooting range was in existence prior to
1996. The Court finds the Chapos’ assertion
not credible in light of the Chapos signed
petition, registration of Big Shot, “Grand
Opening” advertising and published material.
7. On November 7, 2012, the Chapos’ application for a conditional use as to the future
Indoor/Outdoor tactical and test firing range
was denied.
8. Neither the Chapos nor Big Shot took any
steps to appeal the BZA decision.

5a
9. There is no evidence that the JCZO is an
ordinance that was enacted with the explicit
intent to target or restrict the Second Amendment rights of any individual or entity.
10. There is no evidence that the JCZO is an
ordinance that has been applied to act as an
explicit or de facto ban on shooting ranges in
Jefferson County.
11. The Chapos received a copy of the January
4, 2017 Order, granting a preliminary injunction and denying the request for stay, within
days of the Order’s issuance.
12. The Court’s January 4, 2017 Order contained the following language:
a. The Chapos, and/or any entity under
their control, are preliminarily enjoined
from operating a tactical and test firing
range, and/or a shooting range, at the
Property located at 10214 W. Deputy
Pike Road, Deputy, Indiana.
13. The Chapos were aware of the existence and
content of the Court’s Order within days of
the Order’s issuance.
14. The Chapos received a copy of the January
24, 2017 Order of the Court of Appeals
denying the request for stay, within days of
the Order’s issuance.
15. On January 8, 2017, four days aver the
Court’s Order, the Chapos hosted a fee based
“Target Discrimination Event” at the disputed tactical and test firing / shooting range

6a
at the Property through their business, Big
Shot.
16. On February 5, 2017, one month after the
Court’s Order and two weeks after the Court
of Appeals Order, the Chapos hosted a fee
based “Advanced Movement and Shooting
Event” at the disputed tactical and test
firing/shooting range at the Property
through their business, Big Shot.
17. On June 17, 2017, the Chapos hosted a fee
based “3 Gun Run” at the disputed tactical
and test firing/shooting range at the Property
through their business, Big Shot.
18. On July 4, 2017, the Chapos hosted a fee
based “Machine Gun Shoot” at the disputed
tactical and test firing shooting range at the
Property through their business, Big Shot.
19. On July 29, 2017, the Chapos hosted a fee
based “Three Gun Competition” at the disputed tactical and test firing/shooting range
at the Property through their business, Big
Shot.
20. Between January of 2017 and July of 2017,
the Chapos continued to advertise by publication, by website and by Facebook fee based
access to the disputed tactical and test firing/
shooting range at the Property through their
business, Big Shot.
21. In July of 2017, the Chapos posted an invitation to the community to attend the hearing
scheduled in this matter that contained
a cartoon caricature of a judge editing the

7a
language of the Second Amendment with a
marker labeled “Jefferson County.”
22. The Chapos admit that the disputed tactical
and test firing/shooting range at the Property
remains in operation and has not ceased
operation since the issuance of the January
4, 2017 Order.
23. The Chapos assert that they were not able
to understand the statement in imperative
form contained in the January 4, 2017 Order
that clearly and concisely prohibited “Chapos,
and/or any entity under their control . . . from
operating a tactical and test tiring range,
and/or a shooting range, at the Property.”
The Court finds this assertion not credible in
light of the clarity of the Court’s Order and
the content and manner of the testimony
provided.
24. The Jefferson County Plan Commission has
been required to expend $400.00 in attorney
fees in the filing and prosecution of their
Amended Citation for Contempt and Motion
to Enforce Preliminary Injunction.
Conclusions of Law
1.

“Once an appeal has been perfected to the
Court of Appeals or the Supreme Court, the
trial court has no further jurisdiction to act
upon the judgment appealed from until the
appeal has been terminated.” Hickman v.
Irwin Union Bank (In Re Hickman), 811 N.E.2d
843 at 848 citing, Schumacher v. Radiomaha,
619 N.E.2d 271, 273 (Ind. 1993). “The rule
does not promote form over substance; it facil-

8a
itates the orderly presentation and disposition of appeals and prevents the confusing
and awkward situation of having the trial
and appellate courts simultaneously reviewing the correctness of the judgment.” Id.
“However, we have recognized situations in
which a trial court may retain jurisdiction
over certain matters notwithstanding a pending appeal. Specifically, a trial court retains
jurisdiction to perform such ministerial tasks
as reassessing costs, correcting the record, or
enforcing a judgment.” Id.
2. An injunction places a direct personal duty
upon the defendant, and he or she is directly
and personally responsible to the court for
the accomplishment of the object of the
order. Hancz v. City of S. Bend, 691 N.E.2d
1322, 1324 (Ind. Ct. App. 1998). Indirect
contempt arises from conduct which does not
occur in the presence of the court, including
the failure of a party to obey a court order.
Mitchell v. Stevenson, 677 N.E.2d 551,
558 (Ind. Ct. App. 1997). Ind. Code Sec.
34-47-3-1 grants the Court the authority to
find a Defendant guilty of indirect contempt
for willful disobedience of any order lawfully
issued by any court of record. Ind. Code Sec.
34-47-3-6 provides the Court may punish the
Defendant for indirect contempt by fine,
imprisonment or both.
3. The Chapos are in contempt of this Court’s
January 4, 2017 Order. The Court’s Order
clearly and unequivocally prohibited “Chapos,
and/or any entity under their control . . . from

9a
operating a tactical and test firing range,
and/or a shooting range, at the Property.”
The Chapos received and reviewed said Order
within days of its issuance. The Chapos also
received and reviewed the Order from the
Court of Appeals denying stay of enforcement of this Court’s Orders. Nonetheless,
the Chapos have openly and notoriously continued to operate a tactical and test firing
range, and/or shooting range, at the Property,
which is owned exclusively by the Chapos,
either individual or by and through Big Shot,
an entity under the Chapos’ exclusive ownership and control. The Chapos have demonstrated willful disobedience of this Court’s
Orders and disdain for the authority of this
Court.
WHEREFORE, the Court now ORDERS, ADJUDGES
AND DECREES as follows:
1. The Defendant’s Motion to Dismiss filed
February 1, 2017 is DENIED.
2. The Plaintiff’s Citation for Contempt and
Motion to Enforce filed July 14, 2017 is
GRANTED.
3. The Defendants, Joseph and Sherry Chapo
are found to be in CONTEMPT of this
Court’s Orders. The Defendants, Joseph and
Sherry Chapo, shall purge themselves of
contempt by taking the following actions:
a. The Chapos shall make payment in the
amount of $400.00 to the JCPC within
thirty (30) days of this Order.

10a
b. The Chapos shall immediately cease and
desist in the operation of a tactical and test
firing/shooting range at the Property, regardless of whether said operation is occurring in
an individual capacity or by and through the
operation of Big Shot, an entity under their
exclusive ownership and control. The Chapos
shall take all necessary steps to prevent any
other person or entity from operating a tactical and test firing / shooting range at the
Property, regardless of whether said operation is occurring in an individual capacity or
by and through the operation of a business
entity.
SO ORDERED this 17 day of October, 2017.
/s/ Jeffrey Sharp
Honorable Jeffrey Sharp
Special Judge, Jefferson Circuit Court
Distribution to:
Jefferson Circuit Court Clerk
R. Patrick Magrath, Esquire
1 W. 6th Street
Madison, IN 47250
Charles E. McFarland, Esquire
338 Jackson Road
New Castle, KY 40050
John Vissing, Esquire
432 E. Court Avenue
PO Box 187
Jeffersonville, IN 47131

11a
APPENDIX B
STATE OF INDIANA
COUNTY OF JEFFERSON
IN THE JEFFERSON CIRCUIT COURT
————
Cause No. 39C01-1605-CT-0380
General Term: 2019
————
JEFFERSON COUNTY PLAN COMMISSION
Plaintiff

vs

JOSEPH CHAPO and SHERRY CHAPO
Defendants
————
Special Judge Sally A. McLaughlin
————
November 25, 2019
————
ORDER
This matter came for hearing on the 12th day of
July, 2019. The Plaintiff was present by counsel, Patrick
Magrath, and the Defendants were present by counsel,
Charles McFarland.
This matter was filed on May 25, 2016, the initial
Judge, Judge Auxier, entered an Order of Recusal and
the Honorable Judge Jeff Sharp was appointed Special
Judge who denied Defendants Motion to Dismiss in
2019. The Order on Motion to Dismiss was appealed
and affirmed by the Court of Appeals on May 29, 2018.

12a
Judge McLaughlin was appointed as Special Judge on
November 27, 2018.
The issues presented at hearing included Defendants
Motion for Relief from previously ordered Injunction,
Motion to Vacate Jury Trial, and set for Bench Trial,
and Plaintiffs Motion to Strike.
The Court orders and finds:
(1) Pursuant to Indiana Trial Rule 38(B) the Court
finds the Defendants have not asserted a right to trial
by jury within ten (10) days of the first responsive
pleading and therefore the Court shall set this matter
for bench Trial.
(2) The Court denies Defendants Motion to Dismiss
finding that the issues presented were previously denied
and the denial was affirmed by the Court of Appeals.
(3) The Court declines to issue sanctions to the
Defendants as requested by the Plaintiffs.
(4) The court is declining to re-litigate the issuance
of a temporary Restraining Order at this time and the
current temporary order shall remain in full force and
effect.
(5) The parties are scheduled for a conference of
attorneys on December 2, 2019, in Dearborn
Superior Court II at 3:00 p.m. The Court had
previously set this matter for Bench Trial on
December 6, 2019 however, the Court did not issue a
written order. The Court shall review the trial date,
deadlines for discovery, and Summary Judgment
Motions at said review hearing.
So ORDERED this 25 day of November, 2019 at
Lawrenceburg, Indiana.

13a
/s/ Sally A. McLaughlin
SALLY A. McLAUGHLIN, SPECIAL JUDGE
JEFFERSON CIRCUIT COURT
CC:

Atty. P. Magrath Atty.
C. McFarland
Atty J. Vising
Atty G. Relford

14a
APPENDIX C
STATE OF INDIANA
COUNTY OF JEFFERSON
IN THE JEFFERSON CIRCUIT COURT
————
Cause No. 39C01-1605-CT-0380
General Term: 2020
————
JEFFERSON COUNTY PLAN COMMISSION
vs

Plaintiff

JOSEPH CHAPO AND SHERRY CHAPO AND
DEPUTY BIGSHOT, LLC.
Defendants
————
Special Judge Sally A. McLaughlin
————
April 17, 2020
————
ORDER
This matter came for hearing on the 12th day of
February, 2020 on the Defendant’s motion to correct
error and to clarify the Court’s order from November
25, 2019. The plaintiff was present by counsel, Mr.
Magrath and the defendant was present by counsel,
Mr. McFarland.

15a
Defendants Motion to Clarify and
Motion to Correct Error
The relevant issues in the court’s order of November
25, 2019 include: (1) paragraph 2 “The court denies
defendant’s motion to dismiss finding that the issues
presented were previously denied and the denial was
affirmed by the court of appeals”; and (2) paragraph 4
“the court is declining to re-litigate the issuance of a
temporary restraining order . . . and the current
temporary order shall remain in full force and effect.”
The defendants filed timely motions subsequent to
the November 25, 2019 order requesting the court to
clarify the order and a motion to correct error. The
defendants request the court to clarify whether the
court ruled on defendants’ motions for relief from judgment and for judgment on the pleadings. The motion
to correct error addresses the defendants’ position if
the court clarifies the November 25, 2019 order is an
order to deny the motion for judgment on the pleadings
and the denial of the relief from judgment from the
temporary injunction. The motion to correct error also
addresses the issue of no findings of fact or conclusions
of law in the November 25, 2019 order.
Relevant Case History
The Jefferson County Planning Commission (JCPC)
filed a Complaint against the Chapos and later amended
to include Deputy Big Shot, LLC, regarding a violation
of a zoning ordinance involving a shooting/target range
on Chapos’ property.
On January 4, 2017, the court granted a preliminary
injunction enjoining the Defendants from operating a
shooting/target range on their property. The findings
of fact included, in part:

16a
(1) on September 17, 2012, Chapos filed an application for conditional use to include “in the future . . . a
test firing range;”
(2) the Chapos are the sole owners of a limited
liability corporation registered in the State of Indiana
under the name of Deputy Big Shot, LLC;
(3) on November 7, 2012, the Chapos’ application
for a conditional use as to the future indoor/outdoor
tactical and test firing range was denied by the
Jefferson County Board of Zoning Appeals (JCBZA);
The Chapos/Deputy Big Shot have regularly conducted a firing range on the property since April, 2016.
The court also denied Defendant’s Motion to Dismiss
based on failure to cite which provision of ordinance
was violated; and found the granting of the injunction
did not violate the Fifth Amendment, “taking cause”.
The defendants appealed the granting of the preliminary injunction. The Indiana Court of Appeals affirmed
the trial court decision. On October 24, 2017, the court
issued an order denying defendants’ second motion to
dismiss and finding defendants in contempt for violation of the preliminary injunction. No motion to correct
errors or appeal of the October 24, 2017 order occurred.
The following is a partial review of the relevant
chronological case summary:
• 05-25-2016 Complaint filed against Joseph
Chapo and Sherry Chapo
• 07-11-2016 Motion to dismiss filed by Sherry
Chapo, pro se
• 08-08-2016 Motion for preliminary injunction
filed by plaintiff
• 10-12-2016
injunction

Hearing

held

on

preliminary

17a
• 11-17-2016 Order issued by Judge Auxier
• 11-24-2016 Judge Auxier issues order nullifying
previous order granting injunction/denying motion
to dismiss and withdraws due to conflict
• 12-01-2016 Judge Sharp, Ripley Superior
Court, appointed Special Judge
• 12-05-2016 Motion to join party, DEPUTY
BIGSHOT, LLC filed by plaintiff
• 12-09-2016 Order granting joinder of party
• 12-14-2016 Hearing held on all pending motions
• 01-04-2017 Order denying defendant’s motion
to dismiss; granting plaintiffs motion for preliminary injunction enjoining the defendants
from operating a tactical and test firing range,
and/or a shooting range on their property; defendant’s motion to stay is denied; defendant’s motion
for reconsideration of joinder is denied; the
defendant’s motion for reconsideration of expediated hearing is denied; and the defendant’s
motion to recuse is denied
• 01-24-2017 Court of appeals issued order granting defendant’s request to tender amended
notice of appeal and denying motion to stay
proceedings
• 01-26-2017 Pro-se amended notice of appeal to
include 1/4/2017 court order
• 02-01-2017 Motion to dismiss amended complaint filed by defendants
• 03-15-2017 Plaintiff’s response to defendants’
motion to dismiss filed

18a
• 03-15-2017 Citation for contempt and motion to
enforce preliminary injunction filed by plaintiff
• 05-19-2017 Motion for hearing on Rule 12B
motion filed on behalf of defendant
• 07-13-2017 Hearing held with matter reset for
7/20/2017
• 07-14-2017 Plaintiffs amended response to
defendants’ motion to dismiss
• 07-18-2017 Plaintiffs amended citation for
contempt filed
• 07-20-2017 Court had conflict with 7/20/2017
hearing date and resets for 9/7/2017
• 09-07-2017 Hearing held, counsel to present
proposed orders within 21 days to Court
• 10-24-2017 Order on defendants’ motion to dismiss and plaintiff’s citation for contempt ordering
the defendants’ motion to dismiss filed February
1st, 2017 be denied, and granted the plaintiff’s
citation for contempt and motion to enforce
• 10-30-2017 Court issued order staying proceedings
• 05-29-2018 Court of Appeals issues order,
appeal from trial court order dated November
17, 2016 and Special Judge’s January 4, 2017
order, granting plaintiff’s request for preliminary injunction affirmed
• 11-01-2018 Indiana Supreme Court denies
transfer
• 11-06-2018 Plaintiffs request for permanent
injunction
• 11-13-2018 Judge Sharp order to recuse

19a
• 11-16-2018 Notice of appointment of Judge
King
• 11-27-2018 Notice of non-acceptance by Judge
King
• 11-27-2018 Notice of appointment of Judge
McLaughlin
• 02-11-2019 Motion for judgment on the pleadings filed on behalf of defendants
• 04-19-2019 Motion for relief from judgment
filed on behalf of defendants
• 07-12-2019 Hearing on pending motions
• 11-25-2019 Order from 7-12-2019 hearing
• 12-20-2019 Defendant’s motion to correct error
and motion to clarify
• 01-16-2020 Plaintiffs response to motion to
correct error and motion to clarify
• 02-28-2020 Motion for summary judgment filed
by defendants
Motion for Relief from Judgment
At hearing on July 12, 2019, counsel for defendants
stated the defendants are seeking relief from the
orders of January 4, 2017 and October 24, 2017.
Both orders involved the preliminary injunction. The
January 4, 2017 order issued a preliminary injunction
which was affirmed by the Indiana Court of Appeals.
The October, 2017 order found the defendants in
contempt for violating the preliminary injunction.
Both orders also denied defendants’ motion to dismiss.
Trial Rule 60 B allows relief from judgment where
newly discovered evidence could not have been discov-

20a
ered in time for a motion to correct error or excusable
neglect.
The defendants, by counsel, at the hearing, stated
the relief requested was relief from the preliminary
injunction. The defendants’ position is that the motion
is not a motion to reconsider the previous orders but
instead a motion to “void” the previous preliminary
injunction, as well as the entire litigation based on
new evidence that the officers did not take an oath and
thus their positions were void and unable to take action.
The motion is not timely. The action has been
pending since 2016 and it was in 2012 that the JCBZA
denied the Chapos’ request. Although the defendants
claim to not have learned this information until 2019,
the information could have been known in exercise of
due diligence. In Steinbarger v. State, 14 N.E. 2d 533
(Ind. 1938), the court found the appellant who sought
relief from jury decision and judgment of conviction on
the basis that the jury commissioners had not taken
an oath to support the constitution could not prevail.
Id. The court found that the oath was a matter of
public record and as such available prior to trial, Id.
The court found that the jury commissioners were de
facto officers and their authority to act was not subject
to collateral attack; and that the nature of the oath
taken was public record and could have been known
by the appellant prior to the start of trial. Id. There
has not been adequate showing that in the instant case
that this could not have been discovered earlier with
due diligence.
In this matter, even if the officers were required to
take an oath and failed to do so, the de facto officer
doctrine applies. Fields v. State, 91 N.E.3d 597 (Ind.
Ct. App. 2017) held that an arresting officer’s failure
to take an oath was a technical defect applying a three-

21a
prong test from Carty v. State, 421 N.E.2d 1151, 1154
(Ind. Ct. App. 1981).
According to Indiana law, all that is required to
make an officer de facto is that (1) claim the office
(2) be in possession of it, and (3) perform its duties
under the color of election or appointment. Id.
The Defendants’ motion is without merit. Any
failure of either the 2012 JCBZA or 2016 JCPC to take
and deposit the oath of office is a technical error that
does not invalidate their official actions.
The court clarifies the Motion for Relief from Judgment is addressed in paragraph (2) of the November
25, 2019 order in which the court termed the preliminary injunction a temporary restraining order.
Motion for Judgment on the Pleadings
The defendants’ motion for judgment on the pleadings included two new arguments attacking JCPC’s
qualification and attacking the citizen complaint that
initiated the zoning violation.
The motion also included several issues already
pleaded and denied by prior orders. These include the
issue of required specificity in JCPC’s complaint, collateral attack on the JCBZA due to denial of conditional
use permit, and the constitutional attack on zoning
restrictions applied to a tactical or test firing range.
A motion for judgment on the pleadings attacks only
the legal sufficiency of the pleadings. RQAW Corp. V.
Dearborn County, 83 N.E. 3d 745, 754 (Ind. Ct. App.
2017) “A judgment on the pleadings is proper only
when there is no genuine issue of material fact and
when the facts shown by the pleadings clearly establish that the non-moving party cannot in any way
succeed under the facts and allegations there-in.” Id.

22a
The Court must accept as true the well-pleaded material facts alleged. The moving party is deemed to have
admitted well-pleaded facts in favor of the non-movant,
and the Court is required to draw all reasonable inferences in favor of the non-movant. Id.
On May 29, 2018 the Indiana Court of Appeals
expressly held the JCPA has provided a reasonable
likelihood of success in the following passage: “In its
amended complaint, the JCPC authorized under Indiana
Code Section 36-7-4-1014 (2011) and the Jefferson
County Zoning Ordinance section 11.50 (Title 28-8-23)
to enforce the Jefferson County Zoning Ordinance by
civil action. Here the Chapo’s filed an application for
conditional use. The Chapo’s application...explicitly
acknowledged the property was zoned for agricultural
use. The JCBZA denied the Chapo’s request for the
conditional use of the property as a tactical and test
firing range. Nonetheless, they used the property as a
tactical and test firing or shooting range in violation of
the zoning ordinance. Consequently, the JCPC has
provided a reasonable likelihood of success on the
merits . . . Chapo v. Jefferson Cty. Plan Comm.in, 102
N.E. 3d 354 (Ind. Ct. App.) transfer denied, 113 N.E.
3d 627 (Ind. 2018).
The defendants have not demonstrated determinatively that the JCPC lacks standing. The defendants
have not shown that there are no issues of fact as to
whether the relief requested is in violation of Indiana
statutes. The evidence the defendants claim supports
their position requires a finding that the ordinance
violation is for noise and that the shooting range has
been in operation since 1991. Both are plead to the
contrary in the amended complaint filed by the
plaintiff in which the plaintiff alleges the defendants
violated a zoning ordinance by establishing a shooting/

23a
target range in an agriculture zoned property and
were denied conditional use in 2012 when defendants
first desired to operate the shooting/target range.
The Court finds the motion for judgment on the
pleadings a partial repetition of prior motions to
dismiss that were denied; and finds the new allegations attacking JCPC’s qualifications; and alleging the
citizen complaint that initiated the zoning violation
investigation provides evidence that the citizen is the
complainant and that the complaint is about “noise,”
not supported by the pleadings.
The Court clarifies the denial of the motion to
dismiss as stated in the Courts order of November 25,
2019 was a denial of the motion of judgment on the
pleadings filed by the defendant.
Special Findings
The Court finds neither party filed a request for
special findings prior to the hearing. Trial Rule 52(A)
provides in relevant part “upon its own motion, or the
written request of any party filed with the Court prior
to the admission of evidence, the Court in all actions
tries upon the facts without a jury . . . shall find the
facts specifically and state its conclusions thereon.”
While findings of fact and conclusions of law are
required in an initial order for an injunction, that
would not apply where the injunction is previously
ordered on a motion for relief from judgment.
Order of Clarification of November 25, 2019 Order
The Court clarifies the order of November 25, 2019
as follows:
Paragraph 2. The Court denies the defendant’s
motion for judgment on the pleadings as stated herein.

24a
Paragraph 4. The Court declines to re-litigate the
issuance of the preliminary injunction (restraining
order) and denies motion for relief from judgment from
the orders of January 4, 2017 and October 24, 2017.
Order on Motion to Correct Error
Findings of Fact
1. On September 17, 2012, Chapos filed an application for conditional use to include “in the
future . . . a test firing range.”
2. The Chapos are the sole owners of a limited
liability corporation registered in the State of
Indiana.
3. On November 7, 2012, the Chapos’ application
for a conditional use for a future indoor/outdoor
tactical (firing/shooting) range was denied by
the JCBZA.
4. The JCPC commenced this action in 2016, upon
finding that a firing/shooting range was being
operated on Chapos’ property.
5. On January 4, 2017 the Court ordered a preliminary injunction enjoining the Defendants
from operating a firing/shooting range on their
property and a motion denying defendants’
motion to dismiss.
6. On October 24, 2017, Court denied defendants’
motion to dismiss and finds defendant in
contempt for violating preliminary injunction.
7. On May 29, 2018, the Indiana Court of Appeals
affirmed the January 4, 2017 order and
November 1, 2018 the Indiana Supreme Court
denied transfer.

25a
8. In April 2019, defendants have verification that
officers of the 2016 JCPC and 2012 JCBZ may
not have taken oaths of office and oaths are not
on file.
9. On February 11, 2019, the defendants filed a
motion for judgment on the pleadings.
10. On April 19, 2019, the defendants filed a motion
for relief from judgment.
11. On July 12, 2019, a hearing was held.
12. On November 25, 2019, the Court issued order
denying both motions.
13. On December 20, 2019, the Defendant filed a
motion to correct error and motion to clarify.
14. On February 12, 2020, a hearing was held on
the motion to clarify and motion to correct error.
Conclusions of Law
1. Trial Rule 60 B allows for relief from judgment
where newly discovered evidence could not have
been discovered in time for a motion to correct
error or excusable neglect. The motion is not
timely. Whether oaths of the JCPC and JCBZA
had been taken and filed could have been known
in the exercise of due diligence. Steinbarger v.
State, 14 N.E.2d 533 (Ind. 1938).
2. Additionally, even if the officers have not taken
or filed oaths pursuant to law, the de facto
officer doctrine applies. Fields v. State, 91
N.E.3d 597 (Ind. Ct. App. 2017).
3. A motion for judgment on the pleadings attacks
only the legal sufficiency of the pleadings. RQAW
Corp. v. Dearborn County, 83 N.E.3d 745, 754
(Ind. Ct. App. 2017). A judgment on the plead-

26a
ings is proper only when there is no genuine
issue of material fact and when the facts shown
by the pleadings clearly establish that the nonmoving party cannot in any way succeed under
the facts and allegations therein. Id.
4. The issue of the sufficiency of the complaint
due to not citing to a specific provision of the
Jefferson County Zoning Ordinance was previously litigated and rejected by the court in
orders on January 4, 2017 and October 17, 2017.
5. The JCPC attorney is “an attorney representing
the county” to “make an investigation of the
alleged violation” and if the acts are sufficient
to establish a “reasonable belief that a violation
has occurred” to proceed with a complaint and
prosecution. (Indiana Code Section 36-7-4-1013(a))
and thus has the standing to bring complaints
to enforce zoning violations. The Jefferson County
Zoning Ordinance Sec. 11.50 (Title 28-8-23) provides authority for the Jefferson County Plan
Commission to bring an action to enforce the
ordinance.
6. The constitutional claims have previously been
addressed in prior court hearings and orders. A
set of zoning regulations that have the effect of
limiting where a shooting range may be located
do not run afoul of the protections on the Second
Amendment. Ezell I, Ezell v. City of Chicago,
651 F.3d 684 (7th Cir. 2011); Ezell II, Ezell v.
City of Chicago, 846 F. 3d 888 (7th Cir. 2017).
No evidence that the Jefferson County Zoning
Ordinance as applied has the effect of severely
restricting the rights of the citizens of Jefferson
County in firearm use.

27a
7. The order of January 4, 2017 found no Fifth
Amendment taking violation. The restriction on
the use of the property does not deprive the
Chapos of the reasonable use or value of the
property.
8. Whether the Defendants had a pre-existing
target/shooting range in 1991 is an issue of fact
and is not a fact adopted by the Plaintiff in the
pleadings and is opposite to findings of fact in
earlier court orders.
9. The action is brought by JCPC for a zoning
violation and according to the pleadings is not a
noise violation as Defendants claim (although
the investigation into the zoning violation may
have been initiated by a citizen complaint of
noise.) The JCPC has standing to bring the
complaint and is the real party in interest.
10. The allegations that the JCPC and JCBZA
acted outside their authority is not supported by
the pleadings or Indiana law.
11. The court finds no error in the Order to Deny
Defendant’s Motion for Relief from Judgment
and to Deny Defendant’s Motion on the Pleadings,
as clarified herein. WHEREFORE, the Court
denies the motion to correct error.
So ORDERED this 17 day of April, 2020 at
Lawrenceburg, Indiana.
/s/ Sally A. McLaughlin
SALLY A. McLAUGHLIN, SPECIAL JUDGE
JEFFERSON CIRCUIT COURT
cc: P. Magrath
C. McFarland
J. Vissing

28a
APPENDIX D
IN THE COURT OF APPEALS OF INDIANA
————
Court of Appeals Case No. 20A-CT-1197
————
JOSEPH CHAPO, SHERRY CHAPO, and
DEPUTY BIG SHOT, LLC,
Appellants Defendants,
v.
JEFFERSON COUNTY PLAN COMMISSION,
Appellee-Plaintiff.
————
Appeal from the Jefferson Circuit Court
The Honorable Sally A. McLaughlin, Special Judge
Trial Court Cause No. 39C01-1605-CT-380
————
January 22, 2021
————
Attorneys for Appellant
Charles E. McFarland
New Castle, Kentucky
John R. Vissing
Jeffersonville, Indiana
Attorney for Appellee
R. Patrick Magrath
Alcorn Sage Schwartz & Magrath, LLP
Madison, Indiana

29a
Vaidik, Judge.
Case Summary
In 2016, the Jefferson County Planning Commission
(“JCPC”) sued Joseph and Sherry Chapo and Deputy
Bigshot, LLC (hereinafter “the Chapos”), alleging they
were violating a zoning ordinance. The trial court granted
a preliminary injunction against the Chapos and later
found them in contempt for violating the preliminary
injunction. Thereafter, the Chapos discovered the JCPC
members had not taken an oath before assuming office
and moved for relief from judgment based on Indiana
Code section 5-4-1-1, which requires “officers” to take
an oath to support the United States and Indiana
Constitutions before entering office. The Chapos asserted
the JCPC members were officers required by Section
5-4-1-1 to take an oath and their failure to do so
made the office vacant, which in turn meant the JCPC
lacked standing to sue, the preliminary injunction and
contempt orders were void, and the case should be
dismissed. The trial court denied the motion, and the
Chapos appeal.
We affirm, concluding while the JCPC members are
officers required to take an oath under Section 5-4-1-1,
their failure to do so here did not invalidate the JCPC’s
actions because the members acted as de facto officers.
Facts and Procedural History
In May 2016, the JCPC filed a complaint against
the Chapos, alleging they were violating a zoning
ordinance by maintaining a shooting range on their
property. In January 2017, the trial court granted the
JCPC’s request for a preliminary injunction against
the Chapos. Later that month, the Chapos filed an
interlocutory appeal of the preliminary injunction. In
October, while the appeal was still pending, the trial

30a
court found the Chapos in contempt for continuing to
operate the shooting range despite the preliminary
injunction. The trial-court proceedings were then stayed
pending the outcome of the appeal. In May 2018, this
Court affirmed the grant of the preliminary injunction, and in November the Indiana Supreme Court
denied transfer. Proceedings began again in the trial
court, with the Chapos moving for judgment on the
pleadings in February 2019.
In April, while that motion was still pending, the
Chapos discovered the JCPC members had not taken
and filed oaths of office. The Chapos then moved for
relief from judgment under Indiana Trial Rule 60(B)(6),
arguing the JCPC members’ failure to take and file
oaths violated Section 5-4-1-1 and made the offices
vacant under Indiana Code section 5-4-1-1.2, which
meant the JCPC lacked standing to file the original
suit, the trial court’s January and October 2017 orders
are void, and the entire case should be dismissed.1 A
hearing on all pending motions—including the motion
for relief—was held in July 2019. In November, the
trial court issued an order which, in part, denied the
Chapos’ motion for relief.
The Chapos now appeal.
Discussion and Decision
The Chapos argue the JCPC members’ failure to
take and file the required oath means the JCPC lacked
standing to sue and therefore the trial court lacked
authority to act, the January and October 2017 orders
are void, and the case must be dismissed. Under Rule
1

While the Chapos’ Rule 60(B) motion requests relief only from
the October 2017 order, at the hearing the Chapos clarified they
were also requesting relief from the January 2017 order.

31a
60(B)(6), the trial court may relieve a party from a
judgment if “the judgment is void[.]” A Rule 60(B)
motion alleging a judgment is void requires no discretion by the trial court because the judgment is void or
valid and, thus, our review is de novo. Koonce v. Finney,
68 N.E.3d 1086, 1090 (Ind. Ct. App. 2017), trans. denied.
The Chapos first contend the oath required by
Section 5-4-1-1 applies to members of the JCPC. We
agree. Title 5 governs state and local administration,
and Article 4 governs officers’ bonds and oaths. The
statute provides, in relevant part:
(a) Except as provided in subsection (c)[2],
every officer and every deputy, before entering on the officer’s or deputy’s official duties,
shall take an oath to support the Constitution
of the United States and the Constitution of
the State of Indiana, and that the officer or
deputy will faithfully discharge the duties of
such office.
Ind. Code § 5-4-1-1(a) (emphasis added). No definition
of the term “officer” is included in the statute. When
the legislature has not defined a word, we give the
word its common and ordinary meaning. Vanderburgh
Cnty. Election Bd. v. Vanderburgh Cnty. Democratic
Cent. Comm., 833 N.E.2d 508, 510 (Ind. Ct. App. 2005).
Black’s Law Dictionary defines “officer” as one “who
holds an office of trust, authority, or command.” Black’s
Law Dictionary 1257 (10th ed. 2019). And “office” is
defined as a “position of duty, trust, or authority, especially one conferred by a governmental authority for a
2

The exception provided for in subsection (c) applies to “a
deputy of a political subdivision.” Ind. Code § 5-4-1-1(c). As the
JCPC members are not deputies, the exception is not relevant
here.

32a
public purpose.” Id. at 1254. This definition follows the
few prior holdings on the statute. We have held lawenforcement officers are “officers” under Section 5-4-1-1
because they “hold positions of substantial public responsibility.” State v. Oddi-Smith, 878 N.E.2d 1245, 1248
(Ind. 2008); see also Fields v. State, 91 N.E.3d 597, 600
(Ind. Ct. App. 2017), trans. denied.
However, the JCPC argues this definition sweeps
too “broadly” and we should apply the statute to only
“officials recognized by Indiana’s Constitution and/or
statute, and deputies appointed or hired by those elected
officials.” Appellee’s Br. p. 24. However, we see no
indication the legislature intended the term “officer”
to be limited in this way. As such, we give the term its
ordinary—albeit broad—meaning. And under that
meaning, the JCPC members are officers. The JCPC is
a plan commission established by Indiana law, see Ind.
Code § 36-7-4-208, whose members “exercise planning
and zoning powers” for the purpose of “improv[ing] the
health, safety, convenience, and welfare of their citizens
and to plan for the future development of their communities,” Ind. Code § 36-7-4-201. Therefore, members
of the JCPC are officers under the statute—and
required to take the oath because they hold positions
of authority and exercise governmental powers to
benefit the public.
Nonetheless, the JCPC contends their failure to
take and file the required oath does not mean they
lacked standing because “the JCPC members qualified
as ‘de facto’ officers, thereby the JCPC’s decision to
pursue injunctive relief was legally valid and not
subject to collateral attack.” Appellee’s Br. p. 11. We
agree. “The de facto officer doctrine confers validity
upon acts performed by a person acting under the color
of official title even though it is later discovered that

33a
the legality of that person’s appointment or election to
office is deficient.” Ryder v. United States, 515 U.S.
177, 180 (1995). “This doctrine springs from the fear of
the chaos that would result from multiple and repetitious suits challenging every action taken by every
official whose claim to office could be open to question,
and seeks to protect the public by insuring the orderly
functioning of the government despite technical defects
in title to office.” Fields, 91 N.E.3d at 600 (quotation
omitted). In Indiana, all that is required to make an
officer de facto is that they (1) claim the office, (2) be
in possession of it, and (3) perform its duties under
the color of election or appointment. Carty v. State,
421 N.E.2d 1151, 1154 (Ind. Ct. App. 1981). “The
authority of a de facto official cannot be collaterally
attacked.” Id.
Failing to take the oath required by Section 5-4-1-1
is a “technical defect.” Fields, 91 N.E.3d at 600.
Therefore, to determine if the JCPC members acted as
de facto officers, we apply the three-pronged Carty test
whether the JCPC members (1) claimed the offices,
(2) were in possession of the offices, and (3) performed
the duties under color of title. The JCPC members
each claimed the offices on the date of their appointment. See Appellee’s App. Vol. IV pp. 178-83. They
thereafter possessed the offices. Each performed the
duties of a JCPC member by publicly attending meetings, voting on issues, and holding themselves out
as members of the JCPC. See Appellee’s App. Vol. III
pp. 179, 198. And the JCPC members had color of title.
“‘Color’ legally means an appearance, semblance or an
apparent right.” Hendrickson v. State, 253 Ind. 396,
254 N.E.2d 311, 333 (1970). JCPC members are
appointed under Indiana Code section 36-7-4-208.
And notably, the Chapos make no argument the
JCPC members here were not properly appointed. See

34a
Appellant’s Br. p. 26. As such, they had an apparent
right to the offices. See City of Terre Haute v. Bums, 69
Ind. App. 7, 116 N.E. 604, 607 (1917) (“Where one is
actually in possession of a public office, and discharging
the duties thereof, the color of right which constitutes
him a de facto officer may consist in an election or
appointment . . . .”). Accordingly, we conclude they
were acting as de facto officers when the lawsuit
against the Chapos was filed.
The Chapos argue the JCPC members “were usurpers and not entitled to the status of de facto officers[.]”
Appellant’s Reply Br. p. 9. To be sure, a usurper
cannot be a de facto officer. Morten v. City of Aurora,
96 Ind. App. 203, 182 N.E. 259, 262 (1932). But a
usurper is “one who intrudes himself into an office
which is vacant, or ousts the incumbent, without any
color of title[.]” Id. (citation omitted). And here, the
JCPC members were appointees with color of title, as
explained above. They are not usurpers.
The Chapos also assert the JCPC members are not
de facto officers because their failure to take and file
the required oath made the offices vacant. See Ind.
Code § 5-4-1-1.2 (stating if an individual appointed or
elected to an office of a political subdivision does
not comply with the oath requirement within thirty
days of taking office, the office becomes vacant). But a
vacancy in an office does not preclude de facto status.
See United States v. Royer, 268 U.S. 394, 397-98 (1925)
(finding claimant a de facto officer of a vacant office).
The JCPC members were required to take and file
the oath set out in Section 5-4-1-1. However, invalidating the actions of the JCPC based on this technical
defect would undermine the exact purpose of the
de facto officer doctrine—“to insure the orderly func-

35a
tioning of the government despite technical defects in
title to office.” Fields, 91 N.E.3d at 601.
We therefore affirm the trial court’s denial of the
Chapos’ motion for relief from judgment.
Affirmed.
Bailey, J., and Weissmann, J., concur.

36a
APPENDIX E
IN THE INDIANA SUPREME COURT
————
Court of Appeals Case No. 20A-CT-01197
Trial Court Case No. 39C01-1605-CT-380
————
JOSEPH CHAPO; SHERRY CHAPO;
DEPUTY BIG SHOT, LLC,
Appellant(s),
v.
JEFFERSON COUNTY PLAN COMMISSION,
Appellee(s).
————
Filed May 27, 2021
————
ORDER
This matter has come before the Indiana Supreme
Court on a petition to transfer jurisdiction, filed pursuant to Indiana Appellate Rules 56(B) and 57, following
the issuance of a decision by the Court of Appeals. The
Court has reviewed the decision of the Court of Appeals,
and the submitted record on appeal, all briefs filed in
the Court of Appeals, and all materials filed in connection with the request to transfer jurisdiction have been
made available to the Court for review. Each participating member has had the opportunity to voice that
Justice’s views on the case in conference with the other
Justices, and each participating member of the Court
has voted on the petition.

37a
Being duly advised, the Court DENIES the petition
to transfer.
Done at Indianapolis, Indiana, on 5/27/2021.
/s/ Loretta H. Rush
Loretta H. Rush
Chief Justice of Indiana
All Justices concur.

38a
APPENDIX F
RELEVANT CONSTITUTIONAL AND
STATUTORY PROVISIONS
Amendment II to the United States Constitution
A well regulated Militia, being necessary to
the security of a free State, the right of the
people to keep and bear Arms, shall not be
infringed.
Amendment XIV Clause 1 to the United States
Constitution
SECTION. 1. All persons born or naturalized
in the United States and subject to the
jurisdiction thereof, are citizens of the United
States and of the State wherein they reside.
No State shall make or enforce any law which
shall abridge the privileges or immunities of
citizens of the United States; nor shall any
State deprive any person of life, liberty, or
property, without due process of law; nor
deny to any person within its jurisdiction the
equal protection of the laws.

39a
IC § 5-4-1-1
§ 5-4-1-1. Oaths; officers and deputies; prosecuting attorneys and deputies
(a) Except as provided in subsection (c), every officer
and every deputy, before entering on the officer's
or deputy's official duties, shall take an oath to
support the Constitution of the United States and
the Constitution of the State of Indiana, and that
the officer or deputy will faithfully discharge the
duties of such office.
(b) A prosecuting attorney and a deputy prosecuting
attorney shall take the oath required under subsection (a) before taking office.
(c) This subsection applies to a deputy of a political
subdivision. An individual appointed as a deputy
is considered an employee of the political subdivision performing ministerial functions on behalf of
an officer and is not required to take the oath
prescribed by subsection (a). However, if a chief
deputy assumes the duties of an office during a
vacancy under IC 3-13-11-12, the chief deputy
must take the oath required under subsection (a)
before entering on the official duties of the office.

40a
IC § 5-4-1-1.2
§ 5-4-1-1.2. Time for taking oath; exceptions;
failure of officer of political subdivision to take
and deposit oath
(a) This section does not apply to an individual:
(1) appointed or elected to an office the establishment or qualifications of which are expressly
provided for in the Constitution of the State of
Indiana or the Constitution of the United States; or
(2) holding over in an office under Article 15,
Section 3 of the Constitution of the State of Indiana.
(b) Subject to subsection (c), an individual appointed
or elected to an office of a political subdivision may
take the oath required under section 1 of this chapter
at any time after the individual's appointment or
election.
(c) An individual appointed or elected to an office of a
political subdivision must take the oath required by
section 1 of this chapter and deposit the oath as required
by section 4 of this chapter not later than thirty (30)
days after the beginning of the term of office.
(d) If an individual appointed or elected to an office of
a political subdivision does not comply with subsection
(c), the office becomes vacant.

41a
Indiana Rules of Trial Procedure, Rule 60(B)
Rule 60. Relief from judgment or order
(A) Clerical mistakes. Of its own initiative or on the
motion of any party and after such notice, if any,
as the court orders, clerical mistakes in judgments,
orders or other parts of the record and errors therein
arising from oversight or omission may be corrected
by the trial court at any time before the Notice of
Completion of Clerk's Record is filed under Appellate
Rule 8. After the filing of the Notice of Completion of
Clerk's Record and during an appeal, such mistakes
may be so corrected with leave of the court on appeal.
(B) Mistake - Excusable neglect - Newly discovered
evidence - Fraud, etc. On motion and upon such terms
as are just the court may relieve a party or his legal
representative from a judgment by default, for the
following reasons:
(1) mistake, surprise, or excusable neglect;
(2) any ground for a motion to correct error, including without limitation newly discovered evidence,
which by due diligence could not have been discovered in time to move for a motion to correct errors
under Rule 59;
(3) fraud (whether heretofore denominated intrinsic
or extrinsic), misrepresentation, or other misconduct of an adverse party;
(4) entry of default or judgment by default was
entered against such party who was served only by
publication and who was without actual knowledge
of the action and judgment, order or proceedings;
(5) except in the case of a divorce decree, the record
fails to show that such party was represented by a

42a
guardian or other representative, and if the motion
asserts and such party proves that
(a) at the time of the action he was an infant or
incompetent person, and
(b) he was not in fact represented by a guardian
or other representative, and
(c) the person against whom the judgment, order
or proceeding is being avoided procured the
judgment with notice of such infancy or incompetency, and, as against a successor of such person,
that such successor acquired his rights therein
with notice that the judgment was procured against
an infant or incompetent, and (
(d) no appeal or other remedies allowed under
this subdivision have been taken or made by or on
behalf of the infant or incompetent person, and
(e) the motion was made within ninety [90] days
after the disability was removed or a guardian
was appointed over his estate, and
(f) the motion alleges a valid defense or claim;
(6) the judgment is void;
(7) the judgment has been satisfied, released, or
discharged, or a prior judgment upon which it is
based has been reversed or otherwise vacated, or it
is no longer equitable that the judgment should have
prospective application; or
(8) any reason justifying relief from the operation of
the judgment, other than those reasons set forth
in sub-paragraphs (1), (2), (3), and (4). The motion
shall be filed within a reasonable time for reasons
(5), (6), (7), and (8), and not more than one year after
the judgment, order or proceeding was entered or

43a
taken for reasons (1), (2), (3), and (4). A movant
filing a motion for reasons (1), (2), (3), (4), and (8)
must allege a meritorious claim or defense. A motion
under this subdivision (B) does not affect the finality
of a judgment or suspend its operation. This rule
does not limit the power of a court to entertain an
independent action to relieve a party from a judgment, order, or proceeding or for fraud upon the
court. Writs of coram nobis, coram vobis, audita
querela, and bills of review and bills in the nature of
a bill of review, are abolished, and the procedure for
obtaining any relief from a judgment shall be by
motion as prescribed in these rules or by an independent action.
(C) Appeal - Change of venue. A ruling or order of the
court denying or granting relief, in whole or in part, by
motion under subdivision (B) of this rule shall be
deemed a final judgment, and an appeal may be taken
therefrom as in the case of a judgment. No change of
venue in such cases shall be taken from the judge or
county except for cause shown by affidavit.
(D) Hearing and relief granted. In passing upon a
motion allowed by subdivision (B) of this rule the court
shall hear any pertinent evidence, allow new parties
to be served with summons, allow discovery, grant
relief as provided under Rule 59 or otherwise as
permitted by subdivision (B) of this rule.
(E) Infants, incompetents, and governmental organizations. Except as otherwise provided herein, this
rule shall apply to infants, incompetents, and governmental organizations. The time for seeking relief
against a judgment, order or proceeding allowed or
recognized under subdivision (B) of this rule or any
other statute shall not be tolled or extended as to such
persons.

44a
Article I, Section 26, to the
Indiana Constitution
The operation of the laws shall never be
suspended, except by the authority of the
General Assembly.
Article I, Section 32, to the
Indiana Constitution
The people shall have a right to bear arms, for
the defense of themselves and the State.
Article 6, Section 9 to the
Indiana Constitution
Vacancies in county, township, and town
offices, shall be filled in such manner as may
be prescribed by law.

